<html>
<title> - ENGAGING WITH MUSLIM COMMUNITIES AROUND THE WORLD</title>
<body><pre>[Senate Hearing 111-60]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-60
 
                          ENGAGING WITH MUSLIM 
                      COMMUNITIES AROUND THE WORLD

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                [DATE OF HEARING] deg.February 26, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
               http://www.access.gpo.gov/congress/senate

                  U.S. GOVERNMENT PRINTING OFFICE
51-302                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Albright, Hon. Madeleine K., Former Secretary of State, 
  Washington, D.C................................................     9


Fallon, Admiral William J., USN (Ret.), Former Commander of U.S. 
  Central Command, Cambridge, MA.................................    11

      Prepared statement.........................................    13


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     4


Mogahed, Dalia, executive director, Gallup Center for Muslim 
  Studies, Washington, DC........................................    29

      Prepared statement.........................................    32


Patel, Eboo, executive director, Interfaith Youth Core, Chicago, 
  IL.............................................................    36

      Prepared statement.........................................    38


Zeyno Baran, senior fellow, Hudson Institute, Washington, DC.....    42

      Prepared statement.........................................    44


                                 (iii)

  


                         ENGAGING WITH MUSLIM 
                      COMMUNITIES AROUND THE WORLD

                      THURSDAY, FEBRUARY 26, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present. Senators Kerry, Cardin, Shaheen, Kaufman, 
Gillibrand, Lugar, Risch, and Wicker.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good afternoon. This hearing of the Senate 
Foreign Relations Committee will come to order.
    I apologize for the delay in starting. We've just had two 
votes, and we're still on the back end of one of those votes. 
So, I'm confident that colleagues will be on their way, and we 
look forward to their participation.
    I'm excited about this hearing, and I'm glad that we're 
having it, and I'm excited about the witnesses that we are 
going to have here today as we really explore what, for too 
many people in too many parts of the world, is an unknown, or a 
``misunderstood.'' And I think it's important for all of us to 
do our utmost to try to understand each other better before we 
start making global decisions that implicate the actions of 
nations, and young men and women, and our treasury for years 
and years to come.
    As the President made clear in his speech on Tuesday night, 
America has started a new chapter in our history. And part of 
this must be a new chapter in our relations with the Muslim 
world.
    I've just returned from a trip to Egypt, Jordan, Lebanon, 
Syria, the West Bank, and Gaza. At every turn, I heard a 
newfound willingness. I actually heard a thirst, saw a thirst, 
felt a thirst, felt an incredible hunger throughout the world 
for a new dialog and for a new direction, and I found a 
willingness by people and governments alike to take a fresh 
look at America. Frankly, this moment won't last forever, if 
even for long. And so, we need to seize it.
    Let me acknowledge, up front, that even speaking of a 
single Muslim world, as we often hear people do, is a misnomer. 
We must recognize the spectacular diversity of a religion that 
encompasses a fifth of humanity, many Sunni and Shia 
denominations, democracies and dictatorships, hundreds of 
languages, and uncountable thousands of tribes and ethnic 
groups. Most Muslims live far outside of the Middle East, from 
the fishing villages of Senegal and the rice paddies of Java, 
from the suburbs of Paris to the streets of Dearborn, Michigan.
    For all of these differences, today we must send the simple 
message to all Muslims: We share your aspirations for freedom, 
dignity, justice, and security. We're ready to listen, to 
learn, and to honor the President's commitment to approach the 
Muslim world with a spirit of mutual respect.
    We have a great deal of work to do, my friends. An alarming 
number of Muslims today believe that our goal is not to end 
terrorism but to dominate or diminish Islam itself. And their 
mistrust is reciprocated by many westerners who now wonder 
whether the gaps between us are unbridgeable, whether higher 
walls or fewer visas can substitute for difficult tasks of 
coexistence.
    These perceptions are harmful to America. Each undercuts 
our efforts in what I see as the larger struggle, not a cooked-
up clash of civilizations between Islam and the West, but a 
struggle within Islam, between the overwhelming majority who 
share our basic values, and a small sliver who seek to pervert 
the Quran to justify bloodshed or move their societies 
backward.
    Nobody thinks that national security policy should be a 
popularity contest. But, what should be equally clear is that 
our legitimacy matters. Not only do we need it to dissuade 
those vulnerable to an extremist message from taking up arms 
against us, we also need the active support and cooperation of 
their governments and communities. Part of restoring trust will 
be broadening relations with Muslim nations beyond the few 
lightning-rod topics that have defined them since 9/11, to 
include combating poverty, climate change, investing in human 
development, and creating knowledgeable societies. Breaking 
people out of poverty is perhaps one of the most singularly 
important of those challenges.
    Among our most effective steps to counteract extremism, for 
instance, was providing the humanitarian aid to Pakistan and 
Indonesia in the wake of natural disasters. I was in Pakistan 
in the mountains at a time when we were delivering earthquake 
assistance, and I remember how perceptions of America changed 
in the whole country during that period of time, and people saw 
us differently. I also saw children who came out of the 
mountains and were attending schools in tented camps for the 
first time in their lives.
    So, among our most effective steps to counteract extremism 
is that kind of intervention and engagement in the lives and 
cultures of countries. What mattered wasn't merely the 
assistance; it was the sight of American troops working 
actively to save Muslim lives.
    At the same time, unless we take a different approach to 
addressing them, a handful of symbolically charged issues have 
the potential to poison the well and reduce all our efforts to 
nonstarters or to afterthoughts in the minds of those that we 
seek to influence.
    That's one reason why I'm so pleased that the President 
reiterated his commitment, on Tuesday night, that, ``Without 
exception or equivocation, the United States does not 
torture.'' No public relations effort can erase the sting of 
Guantanamo and Abu Ghraib. And while strong words are helpful, 
the world will ultimately judge us by our actions.
    Restoring our moral authority also inescapably demands that 
America return to our traditional role as an honest, fair, firm 
broker in the Middle East peace process. In Gaza, I visited a 
village called Izbet Abed Rabbo, and I saw little Palestinian 
girls playing in the rubble where, 3 months ago, buildings 
stood. It was searing. I said publicly in Gaza, as I'd said in 
the southern Israeli town of Sderot just earlier that day, 
standing with Tzipi Livni, that if Quincy, Massachusetts were 
lobbing rockets into Boston, I would have to put a stop to it. 
But, the reality is that people on both sides deserve better, 
and we know what it's going to take to get them there. Two 
states, side by side, in peace and security.
    I'm not going to delve deeply into Israeli-Palestine issues 
in this forum, but suffice it to say that, without a 
demonstrated commitment to peacemaking as an honest broker, 
this will remain a millstone around any effort to reach out to 
Muslims anywhere in the world. And as we work to empower 
partners from Morocco to northwest Pakistan, we can't afford 
policies that make it unsustainable for locals to be seen as 
pro-American. We can't afford to be politically radioactive.
    If we truly want to empower Muslim moderates, we must also 
stop tolerating the casual Islamophobia that has seeped into 
our political discourse since 9/11.
    As we gather here today, a Senate colleague of mine is 
reportedly hosting a screening in the Capitol Building itself 
of a short film called ``Fitna'' that defames a faith practiced 
by 1.3 billion people. The movie's director has not only 
compared the Quran to Hitler's ``Mein Kampf''; this director, a 
supposed champion of free speech, has suggested that his own 
Dutch Government ban the Quran outright. So, I'm glad you're 
here rather than there.
    Let me also take a moment to recognize the important role 
of America's Muslim communities. Your patriotism is a source of 
security for all of us, and your freedom to worship is a 
powerful counterargument against those who say our values are 
incompatible with Islam.
    In some ways, our tasks should be easy. Most Muslims are 
far closer to Americans, in their love of life, family, 
freedom, and prosperity than they are to the core values of al-
Qaeda. The data shows that the more Muslims know about al-
Qaeda, the less they like al-Qaeda. We should build on these 
trends, these beliefs, by seeking out and restoring the 
partnerships in education, science, technology, arts, and 
culture which for decades sustained good U.S.-Muslim relations. 
We should expand educational exchanges and seriously invest in 
foreign language capabilities. We also need smart public 
diplomacy that is embedded in our political and military 
decisionmaking. It is also encouraging that both sides 
increasingly see the need to deepen and improve our dialog.
    From the ``Common Word'' letter from Islamic religious 
leaders, to King Abdullah's Interfaith Conference in Madrid, to 
President Obama's appearance on Al Arabiya, to the U.S.-Islamic 
World Forum in Doha, Qatar, which our first two panelists 
recently attended, we have these opportunities. And I might 
just comment, last summer I had the privilege of speaking again 
with former Prime Minister Tony Blair at a Yale Divinity 
School-sponsored conference at which there were about 70 
mullahs, imams, clerics, ayatollahs from around the world, 
together with some 70 evangelicals from the United States, 
including some very well-known ones, like Dr. Robert Schuller. 
And there was really an unbelievable sense of common ground at 
that gathering, of the commonality of our Abrahamic roots, each 
of us, those who share those particular roots. But, there is no 
reason that Jews and Christians and Muslims shouldn't be 
finding much more to talk about that we agree on, rather than 
disagree about.
    We're very honored to have with us today some really 
special voices, experienced voices in these arenas, respected 
voices, in order to speak to this issue.
    Secretary of State Madeleine Albright has been a leader in 
these issues through the U.S. Muslim Engagement Project. 
Admiral William Fallon, former CENTCOM and PACOM chief, has 
unique insights into how our military actions and political 
goals can suffer without the active cooperation of local 
communities.
    And then, on our second panel we are going to hear from 
three experts who will help us better understand, How do we 
move forward to effectively engage with the broader Muslim 
world?
    Dalia Mogahed is the coauthor of ``Who Speaks for Islam?'' 
It leads Gallup's opinion survey of over 1 billion Muslims 
worldwide. Dr. Eboo Patel is the founder of the Interfaith 
Youth Core, now active on some 50 American campuses, and he 
focuses on cultivating religious pluralism amongst young 
people, and was recently appointed to the President's Advisory 
Council on Faith-Based and Neighborhood Partnerships. And Zeyno 
Baran is an expert on Eurasia and currently sits at the Hudson 
Institute, and she will offer her perspective on the spread of 
radical ideology in Europe.
    I welcome all of you. Thank you for lending your expertise 
to this crucial topic, to what we will hope could be remembered 
as the beginning of our efforts here, as a pivotal moment in 
our relations with the Muslim world. This is not going to be a 
one-time, free-standing event. This committee is going to be 
committed to engaging actively in ways to try to bridge this 
gap as part of America's public diplomacy, and we look forward 
to an exciting and important dialog.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank you, Senator Kerry, for 
holding this very important hearing on Muslim communities. And 
I join you in welcoming Secretary Albright, Admiral Fallon, and 
other distinguished witnesses.
    In 2006, the committee held two hearings closely related to 
this topic. We heard from administration, counterterrorism, and 
intelligence officials, scholars and authors, on how we could 
improve engagement with the Muslim world. We also examined how 
we could best respond to radicalization that induces 
individuals to become terrorists and creates support for 
terrorist organizations among Muslim populations.
    This hearing continues that oversight and provides a chance 
to explore new opportunities that have been created by the 
global interest in President Obama.
    A poll released just yesterday by WorldPublicOpinion.org 
demonstrates the complexities of this issue. The report found 
that strong majorities in several Muslim countries disapproved 
of terrorist attacks on American civilians, but a majority of 
respondents, simultaneously, endorsed al-Qaeda's goal of 
forcing the United States out of the Middle East and its 
military bases. Furthermore, large majorities in several Muslim 
countries expressed approval of attacks on U.S. troops 
stationed on Muslim soil.
    President Obama's actions in the first weeks of his 
Presidency indicate he is determined to provide leadership in 
reaching out to Muslims. Through his interview with an Arab 
television network, and his appointment of Senator George 
Mitchell as a special envoy to the Middle East, he has 
attempted to strike a more positive tone. And these steps have 
created some momentum toward productive engagement.
    But, President Obama's popularity alone will not guarantee 
success in the absence of a consistent and compelling American 
narrative that is closely synchronized with our policies. This 
narrative must be embraced and implemented throughout our 
government, and it must be echoed by diplomats, development 
experts, contractors, military professionals, alike. We must 
continue to support exchanges that bring people from other 
nations into contact with talented Americans capable of 
explaining and representing our country. And we must also 
improve recruitment of Muslim Americans and those who have 
expertise in Muslim cultures into diplomatic and military 
service.
    A lynchpin in the development and leadership change and the 
primary management of outreach programs to the Muslim world has 
been the Under Secretary of State for Public Diplomacy. Since 
this post was created, in 1999, some very talented people have 
occupied it. Unfortunately, no one has occupied it very long. 
During the last 10 years, the post has been vacant more than a 
third of the time, and the longest tenure of any Under 
Secretary was a little more than 2 years. This circumstance has 
severely hampered attempts to implement a public diplomacy 
strategy, and it's contributed to others in our government 
inventing their own narratives. President Obama and Secretary 
Clinton must remedy this shortcoming by ensuring continuity in 
focus and message during their tenure.
    This committee stands ready to support the Under Secretary 
of State for Public Diplomacy. We want the Under Secretary to 
have the power, the funding, the political backing required to 
do the job. Funds for public diplomacy will have to be spent 
efficiently and creatively if we are to explain the views of 
the United States, display the humanity and generosity of our 
citizens, and expand opportunities for interaction between 
Americans and foreign peoples.
    Our rivals in the marketplace of ideas are playing 
hardball. Al-Qaeda has an astonishing Web presence, including 
such features as multiple-angle videos of suicide bombings. The 
Iranian Government not only materially backs Hamas and 
Hezbollah, it maintains an outreach program in 47 predominantly 
Muslim, African, and Asian countries. And among other means, 
this program employs Iranian Cultural Centers that offer 
Persian language classes and extensive library resources.
    This is one of the reasons why I recently introduced Senate 
Resolution 49, which calls for reassessment of whether we could 
safely reestablish American centers in major foreign cities. 
These centers offer libraries, outreach programs, unfiltered 
Internet access, film series, lectures, and English classes 
that enable foreigners to meet and interact with Americans of 
all walks of life. In past decades, American centers attracted 
young people, as well as community leaders, journalists, and 
policy experts. But, with the end of the cold war and the onset 
of more active terrorism concerns, most American centers were 
either phased out or downsized and moved behind protective 
embassy walls.
    After taking into account security considerations, we 
should determine whether American centers can be re-established 
in some key locations.
    Despite challenges, the United States has advantages that 
can be brought to bear on the problem. Our country is still 
admired for its democracy and freedom of political expression. 
Our disaster relief efforts in Pakistan and Indonesia in recent 
years produced measurable improvements in public attitudes 
toward the United States. And there is broad recognition in 
many Muslim countries of the importance of the United States in 
addressing global challenges like climate change, hunger, and 
technology development.
    I look forward to hearing the perspectives of our witnesses 
on how the United States can construct a coherent program of 
engagement that builds on our Nation's strengths and takes 
advantage of the opening created by the new administration.
    Mr. Chairman, I ask consent that a statement by Jim 
Sciutto, a reporter and author who has traveled and written 
extensively on this topic be submitted for the record. Mr. 
Sciutto was asked to testify, but could not get clearance from 
his supervisors at ABCNews.
    The Chairman. Without objection, the statement will be 
included in the record.
    Senator Lugar.I thank you, Mr. Chairman.
    [The information referred to by Senator Lugar follows:]

 An excerpt from: Against Us: The New Face of America's Enemies in the 
 Muslim World\1\ by Jim E. Sciutto, Senior Foreign Correspondent, ABC 
                                  News
---------------------------------------------------------------------------

    \1\ Harmony Books, September 2008.
---------------------------------------------------------------------------
    For five years, I've lived in Notting Hill--home to fashion 
boutiques, gourmet delicatessens, Park Avenue rents and half a dozen 
guys planning for martyrdom. My neighbors are terrorists. I found out 
the first time in July 2005. After attempting and failing to blow 
themselves up on the London subway, three young British Muslims were 
captured in an apartment just down the street from me and right around 
the corner from ``Travel Book Shop'' where Hugh Grant's character 
worked in the movie ``Notting Hill.''
    London's collective sense of security had already been shattered 
two weeks earlier, when four other British men detonated bombs on three 
subway trains and a bus across the capital. Those attackers had been 
successful, killing 52 people and themselves. As an American, I 
marveled at Britain's calm. London was shocked but not frozen. The 
buses and trains started running again almost immediately. Friends kept 
their dinner dates that night. Londoners proudly recalled the Second 
World War: We survived the blitz, we can survive this. But this time, 
the threat came from home. Britain's own people were killing their 
fellow citizens, and these were good British boys, with jobs, families, 
favorite soccer teams and unmistakably British accents.
    There would be other chilling reminders of this threat every few 
months. In August 2006, a plot was uncovered in Waltham Forest, East 
London to blow up half a dozen airliners over the Atlantic using 
chemicals carried on board in soda bottles. If the alleged planners had 
been successful, they would have killed thousands: A 
9/11 over the sea. In February 2007, Scotland Yard foiled a plan in 
Birmingham to kidnap and behead British soldiers returning from Iraq 
and Afghanistan. Several newspapers shared a single headline for the 
story: ``Baghdad comes to Birmingham.''
    Each plot seemed more sinister than the next. In July 2007, two men 
tried to blow up car bombs outside two London nightclubs. When the 
bombs failed, they drove ten hours to Scotland to set themselves on 
fire outside the departure terminal at Glasgow airport. Like the 
Birmingham suspects, they had intended to bring Iraqi-like violence 
home to the British people. But this conspiracy had a new twist: The 
attackers were doctors. And they were my neighbors as well. Two of them 
had addresses just down the street from me, again, in idyllic Notting 
Hill.
    What worried me was that the hate--against Britain, against 
America, against the West--had become a part of the fabric of everyday 
life. In early 2002, I had embarked on a traveling, educational tour of 
the Arab World as a foreign correspondent for ABC News. After 9/11, I 
knew we had dangerous enemies in the region. But they were, I thought, 
easily identifiable: Terrorists, radical imams, infiltrators from far 
away places. One hundred assignments later, from the Caucasus in the 
north, down through Afghanistan and Iran, the Persian Gulf, and into 
the Middle East, I was changed, even floored. In Afghanistan and 
Jordan, I'd met al-Qaeda fighters who told me it was their dream to 
kill me. That was no surprise. But for everyone from Egyptian democracy 
activists to Iraqis who had once supported the U.S. invasion to ``pro-
western'' Lebanese lawmakers, America seemed to have perfected some 
sort of perverse art in alienating people.
    The U.S. as foreign menace is a nice distraction from poverty, 
corruption and utter failure at home. Still, among Muslims, there is 
something distinct and demoralizing about their anti-American 
sentiment. Many Muslims I've met have long believed that the U.S. is 
trying to control their lives, nearly always with the worst intentions. 
They don't blame me personally. They usually make the distinction 
between the American people and their politicians (though that 
distinction is fading). But they do treat me as America's official 
spokesman, or as its defense attorney in an international court of 
public opinion where the facts as we see them don't matter much. Here, 
the September 11th attacks were a joint plot of the CIA and Israeli 
intelligence. Mayhem in Iraq is not failed policy, but a deliberate 
American plan to occupy Muslim land and steal oil. The Israel-Lebanon 
War was a brazen attempt by the United States and Israel to send a 
violent message to Muslims by killing Lebanese civilians. Such 
assumptions extend even to native-born European Muslims. Among many 
British Muslims, the July 7th London subway bombers weren't murderers, 
but innocent young men framed by the police (though they'll often add 
that Britain deserved the attacks anyway).
    After 7 years of reporting on this subject, I came to an unsettling 
truth: The al-Qaeda-inspired view of an evil America bent on destroying 
Islam has moved from the fringe to the mainstream. Today, America's 
enemies are not the wild-eyed radicals I had imagined but often 
moderates--and many of those whom we thought were our friends are now 
some of our most virulent detractors.
    Positive views of America--already anemic--have grown slimmer and 
slimmer. A 2007 poll by the U.S.-based Program on International Policy 
Attitudes in four Muslim countries (Egypt, Morocco, Pakistan, and 
Indonesia) found that 79 percent believe the United States seeks to 
``weaken and divide the Islamic world.'' Strong majorities (64 percent 
on average) even believe it is a U.S. goal to ``spread Christianity in 
the region.''
    Between 2002 and 2007, the Pew Global Attitudes Project found that 
the number of people who rated the U.S. favorably declined in 26 of 33 
countries. By 2007, there were 9 countries in which less than 30 
percent of the population rated the U.S. positively. Eight of them were 
predominantly Muslim: Turkey, Pakistan, Palestine, Morocco, Jordan, 
Egypt, Malaysia, and Indonesia (Argentina was the odd man out).
    In more than 30 years as a pollster, Andrew Kohut, the president 
and director of the Pew Research Center, said he has found no frame of 
reference for the current decline.
    ``We don't have any experience with this. We never got the breadth 
of discontent with America as we have now,'' he said. ``In other 
countries, it's disappointment, resentment, envy. Among Muslims, it 
ranges from strong dislike to hatred.''
    Increasingly, negative views of America as a country are extending 
to the American people. Another Pew poll found that less than one-third 
of Egyptians, Moroccans, Palestinians, Pakistanis, and Turks have a 
favorable view of Americans, characterizing us as greedy, violent, and 
immoral.
    Just after 9/11, President Bush declared nations around the world 
``with us or against us'' in the war on terror. Now, those in the 
Muslim world are against us in greater numbers than ever before--and 
they have a new face. A remarkable variety of people--normal people--
believe the U.S. intentionally obstructs rather than promotes progress. 
Al-Qaeda may be losing the military campaign but, in considerable ways, 
it is winning the ideological war.
    ``Al-Qaeda's ideological claims now have credibility, that the West 
is waging war against Islam,'' said Fawaz Gerges, friend and long-time 
Middle East analyst. ``There is a crusading spirit in the West. It 
helps shape the Muslim view that the U.S. is trying to control their 
lives. The U.S. is convinced Al-Qaeda is an evil-doer. Al-Qaeda has 
convinced Muslims that the U.S. is an evil-doer too.''
    The hostility galvanized my own patriotism. I found myself eager to 
raise the alarm at how deeply our image has been damaged and search for 
ways to repair it. I found some of the answers by getting to know some 
of the people who see every event of their lives affected--stage-
managed, even--by the U.S. For Iraqis, every car bombing has an 
American imprint. For Palestinians, it's every foot of the wall Israel 
has built along the border of the West Bank. For Afghans, it's the 
electricity that's still off most of the day. We have no connection to 
them, but they feel every connection to us. Their anger is as real as 
their humanity. These people aren't monsters. Through the profiles that 
follow, I hope to show how average people buy the conspiracy theories, 
answer ``yes'' when asked if America is seeking to weaken the Muslim 
world, and place more hope in holy war than in America.
    In the eyes of many Muslims, America is the victim of its own 
mistakes. The United States has lost its moral compass across the 
region. For them, the gap between what we preach and what we do has 
always been wide, but today it is unbridgeable. The Iraq war was the 
worst advertisement for American intervention. Torture matters. 
Guantanamo and Abu Ghraib matter. Our relationships with dictatorships 
matter too. Muslim friends laugh when we call Saudi Arabia and Egypt 
``moderate'' regimes. This is why dissidents in Egypt today see their 
cause as stronger without America than with it. ``Without you getting 
involved,'' a young Egyptian pro-democracy blogger told me, ``We'd be 
fighting just (Egyptian President Hosni) Mubarak, not Mubarak and 
America.''
    There is a strange contradiction at the root of much of the hate: 
while they resent us, many Muslims remain in awe of American power--so 
much so that they believe U.S. failures in Iraq, Afghanistan, or the 
occupied territories were America's intention all along. Nothing else 
could explain the disparity between American promises and performance. 
As a result, the Iraqi trauma surgeon I've known since the invasion of 
Baghdad doesn't credit America for the calm after the surge. After 5 
years of piecing together the war's victims, he is convinced America 
planned the mayhem from the start. He even believes the U.S. was behind 
many of the suicide bombings. To him, regardless of who's responsible, 
the deaths of more than 150,000 Iraqis (as estimated by the World 
Health Organization through 2006) was too high a price for his country 
to pay. Abu Ghraib and Guantanamo are nothing compared to what al-Qaeda 
has done, but held up against America's own standards, they are the 
crimes that have come to define us.
    This feeling of being under attack has helped solidify a new Muslim 
identity--a new cause--of its own. Anti-Americanism is a form of Middle 
Eastern nationalism that transcends borders, even religion. That's why 
I easily found Christians in Lebanon who revere Hezbollah as devoutly 
as Shiite Muslims; they see it as resistance against American 
imperialism. Across the region and even among Muslims in Europe, hating 
America has become a cause, a modern-day youth movement. Hippies didn't 
trust anyone over 30. Muslims have learned not to trust anything 
American.
    As Americans, we can react self-righteously. I've lost my cool in 
dozens of cafe debates with Muslim friends. But that will not bring us 
closer to winning them over. The truth is, they see a different set of 
facts and a different world. Looking far past 9/11 and into the next 
presidency, Americans can wish the hostility away or look for the 
elements of it we can address. We had opportunities to turn the tide of 
hate: After 9/11, when much of the region unanimously opposed al-
Qaeda's brand of violent nihilism, and again in 2005, when elections in 
Iraq, Palestine, Lebanon, Egypt, and the Gulf states gave some hope 
that the U.S. might be on to something.
    Polling consistently shows Muslims' priorities mirror ours: Family, 
economic opportunity, reform, and a political system they can 
participate in. It's just that today they see America as standing in 
the way of these values, rather than promoting them. To us, freedom 
means elections. To many Arab Muslims, freedom means freedom from 
American influence.
    There are ways we can save ourselves, I've been told, to turn the 
tide of hate. Sometimes, the solutions are straightforward, such as 
putting roofs over the heads of students in Afghanistan or getting pro-
democracy campaigners released from Egyptian prison. More often, they 
are long-term and complicated.
    ``Many Muslims are still deeply enamored of America the idea,'' 
said Gerges.
    There's the hope. Today, America the reality, though, is a 
disappointment and a threat. This is the new philosophy--the new cause 
uniting disparate people in disparate places. America is the aggressor, 
the real impediment to peace, the enemy, and those standing up against 
us are not just masked gunmen in far-off desert hideouts, they are 
graduate students in Lebanon, democracy campaigners in Egypt, doctors 
in Iraq, and even young men in by neighborhood of Notting Hill. Their 
attitude towards the U.S.--and Americans--comes from years of living as 
unwilling subjects of our foreign policy. Their insight into our 
country is at times grounded in profound wisdom and experience. At 
other times, it's based on pure bunk. But seeing through their eyes 
will help us understand their vision as well as America's position in 
the post-9/11, post-Iraq, post-George Bush world.


    The Chairman. I thank you, Senator Lugar. It's a pleasure 
to join with you in hosting this hearing, and I'm glad that we 
can do it.
    Secretary Albright, thank you again for being here with us. 
We really appreciate it. Admiral Fallon. And if, Secretary, 
you'd lead off, we look forward to your testimony.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
                    STATE, WASHINGTON, D.C.

    Dr. Albright. Thank you very much, Mr. Chairman and 
Chairman Lugar. It's a pleasure to be with you and members of 
the committee. I'm very pleased to be here with my colleague, 
Admiral Fallon, and to address the question of engaging the 
Muslim communities around the world.
    I recently did participate in a study on this subject which 
recommended the following: Vigorous use of diplomacy to resolve 
conflicts, support for improved governance in Muslim-majority 
states, efforts to enlarge economic opportunity, and steps, 
based on dialog, to enhance mutual understanding.
    Each of these approaches has value, and each should be 
explored during our session today, but I would like to use my 
time, at the outset, to make some additional observations.
    First, as the subject of this hearing reflects, there are 
numerous Muslim communities around the world, including the 
United States. And these communities, as Chairman Kerry said, 
are diverse and cannot be portrayed accurately with a broad 
brush.
    Second, successful engagement between any two groups 
involves certain rules. Each side has a duty to scrutinize its 
own actions, state clearly its expectations of the other, and 
listen with an open mind to opposing views. These principles 
are easier to recite than to fulfill, which is why disputes so 
often arise around the question of double standards. For 
example, the United States is frequently accused of applying 
one set of standards to its own actions and another to that of 
Arabs and Iran. For our part, we fault Arab States for 
rationalizing violence, suppressing political rights, 
perpetuating harmful myths, and refusing to accept 
responsibility for bad decisions. As a result, instead of 
dialog, we tend to have opposing monologs. This creates a 
climate in which advocates of compromise are routinely accused 
of betrayal. The way out is through leaders brave enough to 
admit that each side has faults and smart enough to translate 
shared frustration into a motive for common action. Such 
leaders do not arise often, but they are needed now.
    Third, the West's interest in Muslim communities spiked 
after 
9/11. That is understandable, but awkward. A dialog driven by 
such a traumatic event is sure to evoke accusations on one side 
and defensiveness on the other. And this means that, if we're 
serious, we should separate our engagement as much as possible 
from the context of terrorism. The West has many more reasons 
than al-Qaeda to improve relations with the Muslim world.
    My fourth point is related. Western media are full of 
references to ``Islamic terrorism.'' But what does that mean? 
We do not portray the Oklahoma City bombing as Christian 
terrorism, even though Timothy McVeigh thought of himself as a 
Christian. McVeigh was guilty of mass murder, and there was 
nothing Christian about it. The same principle applies with 
Islam. When Muslims commit terrorist acts, they are not 
practicing their faith, they are betraying it.
    Fifth, as any experienced diplomat can testify, engagement 
comes in many flavors, from tea to vitriol. Often, the stronger 
the brew, the more useful the encounter. Thus, American policy 
should be to talk to anyone, if, by so doing, we can advance 
our interests.
    An example of the kind of hardheaded engagement I have in 
mind is that between the U.S. military and Iraq's Anbar 
Awakening, which turned former enemies into tactical allies. As 
this precedent suggests, conversation is not the same as 
negotiation, and smart engagement is not appeasement. Looking 
ahead, our Secretary of State and our special envoys should 
have all the flexibility they require.
    Sixth, we need to repair our relationship with Pakistan. 
The world appears different from Islamabad than it does from 
Washington, and we cannot expect Pakistani leaders to place 
their interests beneath ours. At the same time, no country has 
suffered more from violent extremism.
    Pakistan's primary challenge is governance. Nothing 
improves the climate for extremism more than the failure of 
official institutions to fill such basic needs as security, 
education, and health care.
    In trying to help, we should bear in mind the distinction 
between the different and the dangerous. In Pakistan's 
northwest, people ordinarily worship, dress, and think in ways 
unfamiliar to us. This does not make them a threat, for their 
political horizons tend to be local. That changes, however, 
when we hurt the wrong people. A family whose loved ones are 
accidentally killed by an American bomb will no longer have a 
local mindset. So, we have a very difficult line to walk. 
Military operations against hardcore elements are still 
essential; but, we will never win if, through our actions, we 
inadvertently create more terrorists than we defeat.
    Seventh, our engagement with Muslim communities should 
include explicit support for democracy. This preference need 
not be heavyhanded, but neither should it be so timid as to be 
inaudible. It is true that the democratic brand has been called 
into question, but for every question there is an answer. Armed 
groups, such as Hamas, have no place in an election. But 
democracy is why women have led governments in four of the five 
most populous Muslim-majority states. Recent provincial 
balloting in Iraq has helped to unify the country, while 
parliamentary debate has been useful in channeling anger. 
Upcoming votes in Iran and Afghanistan will no doubt influence 
the course of those nations. Democracy's advantage is that it 
contains the means for its own correction through public 
accountability and discussion. It also offers a nonviolent 
alternative for the forces of change, whether those forces are 
progressive or conservative.
    And finally, religion matters. I know there are some who 
would like to engage with Muslim communities without bringing 
religion into the conversation, but to them I say good luck. As 
Archbishop Tutu has pointed out, religion is like a knife; it 
may be used to slice bread or to stab your neighbor in the 
back, but it cannot be ignored.
    Both the Bible and the Quran include enough rhetorical 
ammunition to start a war and enough moral uplift to engender 
permanent peace. The determining factor is less what the words 
say than the message we choose to hear.
    Accordingly, I would like to close with a quotation, ``If 
Muslims and Christians are not at peace, the world cannot be at 
peace. With the terrible weaponry of the modern world, with 
Christians and Muslims intertwined as never before, no side can 
unilaterally win a conflict. Thus, our common future is at 
stake. So, let our differences not cause hatred and strife. Let 
us vie with each other only in righteousness and good works.''
    This is a citation from a document entitled, ``A Common 
Word Between Us and You,'' signed by a diverse group of more 
than 300 Muslim scholars. It is based on the shared commitment 
to monotheism and love of neighbor that is central to the 
Quran, Hebrew Bible, and the New Testament.
    Mr. Chairman and members of the committee, the bridges to 
be built through engagement with Muslim communities are not 
political, religious, intellectual, cultural, or economic. They 
are all of these at once. And this means that we each have a 
responsibility and a role.
    Our purpose cannot be to erase differences, but to manage 
them so that they enrich, rather than endanger, our lives.
    Thank you very much.
    The Chairman. Thank you very much.
    Admiral Fallon.

  STATEMENT OF ADMIRAL WILLIAM J. FALLON, USN (RET.), FORMER 
        COMMANDER OF U.S. CENTRAL COMMAND, CAMBRIDGE, MA

    Admiral Fallon. Mr. Chairman, Senator Lugar, distinguished 
members of the committee, it's a great pleasure and an honor to 
be here in your presence, and in the presence of my 
distinguished colleague, if I could be so bold as to, at least 
for today, try to rise to that occasion. Madam Secretary, a 
pleasure to see you again.
    As you know, I've had some recent experience dealing in 
countries in much of the world that contain significant Muslim 
populations, and I think that this subject of the hearing today 
is really very appropriate; it's an area in which we've got to 
figure out how to move forward because the potential on the 
upside is terrific, and the other course of action, on the 
downside, is not where we need to be continuing.
    I think that the business of engaging with the Muslim world 
is extremely important for our country, for a host of reasons 
certainly. First and foremost among them would be the large 
number of people that are involved here. As Senator Kerry 
indicated in his opening statement, we are talking about almost 
a quarter of the population of the world, and there are a host 
of other economic, demographic, political, security, and other 
reasons why this subject is so important to us.
    There are a lot of historical factors that I believe are at 
play in the current state of relations. I would point out that 
we can't do much about the past, but we can certainly do 
something about today and the future. And I think that's where 
we ought to really focus. And so, there are things that have 
gone on in history that have set the stage for the current 
state of affairs. Certainly, the aftermath of the events of 9/
11 played a major role in the situation, and the ongoing 
conflicts in the Middle East adding more fuel. The result is a 
significant image issue, as you are well aware, and the purpose 
of this hearing.
    Today we have some new opportunities, for a number of 
reasons. First and foremost, with the new administration, my 
sense, as I travel around the world, is a tremendous amount of 
enthusiasm and very high expectations for just something 
different and for goodness to occur. And I think it's a really 
great opportunity for us to try to leverage that goodwill.
    Another fact of life is that the situation in Iraq has been 
dramatically improved over the last year and a half, and that 
this offers us some great opportunities.
    And another one that might not, at first glance, appear to 
be positive, but in the aftermath of the financial and economic 
crises that's reverberating around the world, we've got a great 
opportunity here, because if we are going to solve these 
problems, we're going to have to work closely together. And I 
think, by now, people all over the world have a sense that this 
isn't going to be confined to a certain country or a certain 
part of the world, that everybody's going to feel it, they are 
feeling it right now. And this fact, alone, ought to motivate 
some behavioral change that would put us in good stead.
    We have a problem that has been certainly uppermost in 
minds of people in this country and around the world since 9/
11, and that's the terrorist threat. It existed before that, 
but it reached new heights. And it's been my experience that, 
if we're going to continue to work to try to resolve and 
minimize the impact of this challenge, it's going to require 
very, very close cooperation. And the more help that we can get 
from more people in different parts of the world, the better 
off we're going to be, and the more likely we're going to be to 
succeed in this challenge.
    We can leverage goodwill. There have been events, in recent 
years, that have demonstrated that the U.S.--and really it's 
the people of this country--care about their fellow man. We 
have devoted enormous sums of money, a tremendous amount of 
effort, goodwill, to help people in hardship. There are a 
couple of events that occurred in parts of the world that were 
in my responsibility. The disastrous tsunami of late 2004, and 
the aftermath, changed, dramatically, opinion in the most 
populous Muslim country in the world, Indonesia.
    I arrived just as the cleanup was really getting underway. 
And the difference in tone, the difference in a willingness to 
work with us, was just remarkable over a relatively short 
period of time. And I know a similar set of events occurred in 
the wake of another disaster: The earthquake in Pakistan.
    One of the reasons I highlighted the current fiscal and 
financial and economic crisis, was because from these 
challenges, typically, great opportunities arise. Our ability 
to react in a positive manner to these things is really 
important, and we have to do a lot of things, I believe, to set 
the stage. But, the opportunities are certainly there.
    I've always found that actions speak louder than words. And 
we will need to demonstrate, as we are doing, by our actions, 
that we really care. And that's really the message, and that's 
what people look for. And so, as we contemplate, and as you've 
asked for input on ways and means and things that people might 
do, I think doing the right things to try to build confidence, 
to build trust between people, is the real deal here. And how 
do you do it? You've got to engage. You have got to interact 
with people. They have to see you, and they have to feel you, 
and they have to have a sense--my experience--that you really 
care and that you're interested.
    So, treating people as we would like to be treated, and 
respecting them as individuals, is really the bottom line. And 
I think we are well within our capabilities to do that and to 
change the negative image that seems to persist in many parts 
of the world, to turn this around, and to make it mutually 
beneficial to these millions of folks around the world, as well 
as ourselves.
    So, I'm delighted to be here and would be happy to answer 
your questions. I would ask that you take my few pages of 
written testimony and enter it into the record for your 
reference. And I'll be happy to take your questions, should you 
have any.
    Thank you very much.


    [The prepared statement of Admiral Fallon follows:]


      Prepared Statement of Admiral William J. Fallon, USN (RET.)

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee. It is a pleasure to appear before you today to testify about 
``Engaging with the Muslim World.''
    It was my great honor to serve and often represent U.S. interests 
in the world during more than four decades of service in the U.S. Navy. 
During that time I had many opportunities to interact with people from 
Muslim majority countries and to understand the high value of frank and 
mutually respectful relations between people.
    During the past 4 years in particular, while serving as Commander, 
U.S. Pacific Command and Commander, U.S. Central Command and most 
recently at the Center for International Studies at MIT, I have 
participated in many matters of high interest to the U.S. and other 
countries around the world. These interactions in Muslim countries have 
often been difficult due to a combination of negative perceptions, 
policies and bureaucratic issues.
    I believe that engaging the Muslim world is of great importance to 
us for demographic, geostrategic, security, economic and military 
reasons. First, more that 1.5 billion people representing almost \1/4\ 
of the world population claim Islam as their faith. These people 
inhabit countries around the world but are concentrated in an area from 
North Africa through the Middle East, South and Southeast Asia. This 
area includes many of the most troubled and security challenged zones 
of conflict, as well as key sources of raw materials, especially oil 
and gas. These lands also front many of the critical maritime choke 
points, through which flows the majority of world commerce.
    Many Muslim majority nations have historically shared good 
relations with the U.S. Others like Indonesia and Pakistan with 
checkered relations in the past are currently high priorities for 
engagement. As you are well aware, since the attacks of September 11, 
2001, negative perceptions based on insecurity have clouded relations 
between America and Muslim nations worldwide. The causes of these 
frictions are many, several predate 9/11, and include U.S. policies 
during the Cold War, recognition of and close relations with the State 
of Israel and the large U.S. military presence in the Middle East. The 
U.S. has oft stated and compelling rationale for its actions but the 
combinations of these and other factors have contributed to rising 
tensions. Recent large scale U.S. military operations in Iraq and 
Afghanistan have intensified the situation and mutual distrust has 
become pervasive. Of course the catalyst for this bad feeling is the 
terror activities of a relatively small number but deadly cadre of 
Muslim violent extremists. And this intense security concern is a 
critical reason why engaging the Muslim world is so important.
    With the start of a new administration in Washington, the 
substantial improvement in the situation in Iraq and the global 
reverberations of the financial and economic crises, I believe we have 
a grand opportunity to reengage the Muslim world to our mutual benefit. 
Although each of the three factors I have chosen to highlight are very 
difficult, they each offer the potential to help us reshape the recent 
situation.
    There is great anticipation and expectation for change and positive 
developments with the advent of the Obama administration. Emotional 
expectations are high worldwide.
    The improving security situation in Iraq, the drawdown of U.S. 
troops there, and increasing cooperation between countries in the 
region should improve the overall atmosphere in the Middle East. The 
reduced levels of violence, the return of displaced persons and 
increasing political competence of the Iraqi government are 
neutralizing what was only recently, a very negative factor in the 
region.
    Although the current economic and financial crises are causing 
global impacts which are detrimental to many, the very scope and scale 
of the problems mandate intense international cooperation to resolve 
this gives us all an opportunity to work very closely together, to 
demonstrate concern, compassion and take positive steps to remediate 
the causes and address the effects of the crises.
    I would suggest a number of steps to improve relations with 
Muslims.


   First would be to listen to their side of the issues and be willing 
        to visit with them and discuss the challenges. Messages are 
        important and President Obama sent a good signal with his 
        recent interview on the Al Arabiya television network.

   Demonstrating our interest in peace and stability with the majority 
        of like minded Muslims by engaging in the Middle East peace 
        process and outreach initiatives across the world, puts action 
        to words. The early designation of Senator Mitchell as Special 
        Envoy is commendable.

   Lending a helping hand, as we are doing in many countries to assist 
        the less fortunate with economic, health, education and 
        security issues.

   Demonstrate, by simple acts of respect and kindness at our U.S. 
        points of entry in treating people the way we want to be, and 
        they should expect to be, treated.

   Fix the bureaucratic process and embarrassing delays in the 
        visitors VISA program for people coming into this country for 
        meetings, conferences and other exchanges.

   Most of the things that make a difference in relations between 
        people come down to issues of trust. We build trust by personal 
        engagement and treating people with respect. In my experience 
        this entails little risk and works well with a majority of 
        people.


    Thank you for the opportunity to express my views. I stand ready to 
address any questions you may have.


    The Chairman. Thank you, Admiral.
    Thank you both for your testimonies. It's almost hard to 
know where to start, because it is such a vast and complicated 
topic, but let me just ask, at the outset, if I could--you just 
said, Admiral, that, you know, how to do it is sort of the 
critical question here for all of us, and that we have to 
engage. I assume you would both agree that the policies we 
choose to pursue are going to be critical in shaping how people 
see us. I mean if we, for instance--pretty much everywhere I've 
gone in the region, whether I'm in Afghanistan, Pakistan, the 
Middle East, elsewhere, we--or elsewhere in the world--we hear 
tremendous kickback on America's involvement in Iraq and the 
policy choices we made there. We started out, in Afghanistan, 
with 100 percent support for what we were doing. Just 100 
percent. A 100-percent support for the Karzai government, a 
100-percent support for us. Now we've seen a rapid turnaround, 
with increased support for the Taliban, which al-Qaeda and 
other entities take advantage of, but which has come about 
because of the absence of what Secretary Albright talked about, 
which is good governance and the delivery to the people.
    So, the question is, sort of--I mean, is there sort of an 
order of priority of the things that we can pay attention to 
that will make a difference--i.e., getting our policy right in 
Afghanistan, Pakistan--getting our policy right in these 
areas--or is it, notwithstanding the policy, that if we did 
more on the humanitarian front, more on the education front, 
and so forth, that it will negate that, or it won't matter?
    Secretary Albright.
    Dr. Albright. It's very important to get the policy right. 
I think that not everything that has gone wrong is due to 
American actions. But, I do think that the direction of our 
policy clearly has an effect. And it's kind of like an umbrella 
under which some of the other points that you raise have to 
take place. And one does not exclude the other, frankly. But, I 
do think that we have to figure out what our objectives are--
wherever we are. I think the problem with the war in Iraq is 
that it was unclear what exactly it was about. And in 
Afghanistan, we lost our way. So, I do think there needs to be 
a sense about the direction that we want to go in.
    It's a combination. You have to have security in order to 
move forward on some of the governance issues. And then, the 
governance is also important, in order to make sure that the 
people can get benefits out of everything that's put in. If you 
have corrupt leaders in any country, the benefits never get 
there.
    So, what I would like to see is a concerted effort, 
obviously in redefining policy, but also having a vibrant 
program on governance issues--not the imposition of American 
institutions, but the assistance and support for those who want 
to develop their own institutions. But, I find it very hard to 
decide we would only do policy and not do the education and 
various issues that you and Senator Lugar were talking about.
    The Chairman. Well, take--how--where would you say that the 
Taliban fit into the description that you've given us of, sort 
of, this challenge? I mean, they're reacting to the lack of 
security; they are reacting, obviously, to their interpretation 
of their faith and their desire for Shari'ah, in its fullest 
interpretation, which many people within Islam would disagree 
with, as to whether or not it is a legitimate full 
interpretation.
    I was just in Syria. One high-level official told me how he 
has a photograph of his mother, 20 years ago or so, visiting 
the Omayan Mosque, wearing a long skirt, not below the knee, 
and no cover, because she wasn't going there to pray. She was 
going there to visit with somebody, to show it to them. And, 
under the requirements, as interpreted, if you're not there to 
pray, you don't have to cover. Today people are covered, 
everywhere, in increasing numbers.
    So, these interpretations tend to become, to some degree, 
part of an entire, sort of, cultural and quasi-political 
movement, if you will, to challenge the orthodoxy of other 
entities or people, or even religions, in some cases. You see 
that with the extremes of the Taliban and in other parts of the 
world.
    Whose responsibility is it to try to draw those 
distinctions, or to try to create the tolerance that might 
exist? Because our legitimacy in trying to do that, it seems to 
me, is almost nil. And there's no central authority, otherwise 
within the religion, that does that. So, it's subject to that 
kind of exploitation. Now I wonder, How do we address that? And 
particularly with respect to something like what's happening 
now in Afghanistan with the Taliban.
    Dr. Albright. Well, I mean, you ask a very difficult 
question, and a very basic one. Clearly, when I was in office, 
we had very serious problems with Taliban, because they were 
making women be voiceless and disappear, and generally made 
life impossible. I went to visit refugee camps where the women 
told horrendous stories. And I won't go through that. The 
Taliban have done dreadful things to the population of 
Afghanistan.
    But, a point that came out in our last Doha summit, that I 
think is worth mentioning here because it fits, Anwar Ibrahim, 
who was the Deputy Prime Minister of Malaysia, now is a leading 
opposition leader, said something that is vital, and that is 
that many of the changes and the weeding out of extremists has 
to be done by the Muslim communities themselves; that when we 
tell people who's good and bad, it can backfire--either we like 
somebody, and that's kind of a kiss of death; or we make 
somebody evil, and that gives them greater stature. And so, I 
do think we need to look for members of the Muslim community 
that can help.
    We've had problems even with the vocabulary. We talk about 
``moderate Muslims.'' The bottom line is that moderate Muslims 
do not believe moderately. They believe passionately about 
moderation. And so, we need to somehow engage them to help us--
--
    The Chairman. Well said.
    Dr. Albright. [continuing]. In that particular problem.
    The Chairman [continuing]. That's very well said. I'm 
almost--my time is up, so Senator Lugar, and then we'll do 
another round.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Albright, I mentioned, in my opening comments, 
the American centers that used to be around the globe. It is 
obviously easy for an outsider to advise the Secretary of State 
and our State Department to open such centers. But, let me just 
ask, from your experience, what is the practical effect of 
this? We've taken extensive security measures to move our 
embassies, in some cases, far out of the capitals, out of touch 
with the coffee houses and the ambiance that used to be a part 
of our engagement and diplomacy because we felt that our 
employees and others might be bombed and lose their lives. But 
even where security challenges are not critical, these centers 
were shuttered. Nevertheless, now there is a thought that 
perhaps these centers might be opened in some localities where 
the security situation allows; that this is an opportunity for 
our message to reach people who earnestly would like to read, 
study, be a part of that. Do you have any overall comment and 
first reflections?
    Dr. Albright. Senator, I have your resolution here, and I 
was looking at it with great interest, and I must say, I feel 
this one very personally. I am the Secretary of State who 
brought public diplomacy into the State Department. I think it 
was the right thing to do. It was very important to get public 
diplomacy and policy together. I also was the Secretary of 
State, on August 7, 1998, which was when our Embassies in Kenya 
and Tanzania were blown up. And I went to get the bodies and 
brought people home and dealt with the families. And the issue 
was about security.
    Senator Lugar. I see.
    Dr. Albright. And it was the hardest thing to think about--
what to do. Our embassies are supposed to be the eyes and ears 
of our country, in foreign countries, to be open and welcoming, 
and yet we have had to move them out, put them behind walls; 
and obviously the information systems were also a part of that.
    I love your resolution. I love all the ``whereases.'' I 
have a problem, because--you raise it at the end--the security. 
That's a very big issue. And so, I hope that we can do what you 
are talking about. The best of America is in our openness and 
our capability to explain our story. And during, for instance, 
the period of communism, it was always amazing to go to one of 
the American centers. When I was in Prague, I went to something 
called the jazz section, where their proudest document was an 
album from the ``Rolling Stones.''
    We have so much to offer, but the security part of this--I 
hope that, as you propose, the ``whereases'' really are used, 
and that the security people look at this. But it's great to 
think about this. Absolutely.
    Senator Lugar. Well, thank you for that very important 
encouragement.
    Dr. Albright. Yes.
    Senator Lugar. Let me ask--during your tenure--and you 
described this in your book, ``A Memo to the President''--you 
twice offered to sit down with Iranians, without conditions, to 
discuss all issues. And, as you described it, both times, 
various ways, you were rebuked. Now, this hearing is about 
engagement, and once again that word is being used with regard 
to Iran. And suggestions are being made, perhaps, that Dennis 
Ross or others may think through formulas as to how we approach 
this indirectly, or maybe more directly. But, what counsel 
would you give, at this time, to our Secretary of State, or to 
our President, with regard to engagement with Iran?
    Dr. Albright. I do believe that it is very important to 
have engagement with Iran. And this fall, five former 
Secretaries of State--three Republican--Kissinger, Baker, 
Powell--and Warren Christopher and I--all agreed that we should 
have dialog with Iran, without preconditions. We can't learn 
about what it is they are thinking, nor can they learn about 
what we are thinking, without that engagement.
    That doesn't mean it's easy, because, as you point out, we 
tried; they missed the signals. In many ways, Khatami did not 
know exactly how to respond, and there were questions about who 
was really in charge. Iran is an incredibly complex society, 
but we will know nothing if we do not have engagement at a 
variety of levels. And so, I hope very much that the 
administration is able to go forward on this, with your 
support.
    Senator Lugar. Admiral Fallon, currently, maybe even as we 
meet here, there are important officials, including the Foreign 
Ministers, the Defense Ministers, those involved--pardon me--in 
intelligence operations, in Pakistan and Afghanistan, meeting 
with our Secretary of State and our Secretary of Defense and 
others. It's remarkable, coming together of three countries in 
Washington at this time. I salute Dick Holbrooke, as well as 
Secretary Clinton and Secretary Gates, for the contacts at 
Veirkundea and various other places that made this possible. 
And Senator Kerry and I were privileged to visit, last night, 
with the participants, many of them. And they did seem to have, 
as you've pressed, a sense that security is an existential 
problem in Pakistan and Afghanistan. And it is not doing us a 
favor by trying to clear up a few people who might once again 
attack New York and Washington.
    But, from your experience, how deeply is this felt, and how 
likely is it that there can be a confluence of interest in 
which we all feel a problem of security and therefore--as 
opposed to doing favors to one another--are able to work on the 
same wavelength?
    Admiral Fallon. We all need things--pardon me--we all need 
things, and everybody in the world would like to have some 
things. And so, there are always opportunities to get together 
and make trades. But, I think I'd like to answer this by 
circling back to a couple of questions that the chairman asked, 
and we vetted, to your question, as well.
    The business of engagement--and we talk about it all the 
time--and who understands what it is. To me, it's a long-term 
commitment to actually working with people. And, it seems to me 
that we get worked up about the engagement. We get pretty 
exercised about trying to solve problems in the wake of 
untoward events. Pretty easy to see how that happens. But, 
related to policies, and related to long-term behaviors, which 
I think are--again, it's what people see and observe that 
really makes a difference--we could be helping ourselves, I 
believe, by relatively modest investments in time, treasure, 
and people, for the long haul, that would preclude us getting 
into a lot of these deep holes that we now find ourselves 
trying to dig out from. And so, engagement, to me, is actually 
being in the world, as our forward-deployed forces are--
certainly our diplomatic people in the various embassies, but, 
increasingly today, the many thousands of military people that 
represent us around the world who are actually out there on the 
oceans, in the skies, and on land in various countries.
    And I think equipping these people with the tools that 
would make them effective in engagement, convincing to people, 
that we really care, is critically important. And frankly, from 
the policy standpoint, the resources that I've found available 
to do these things were pretty minimal. And I think it's pretty 
obvious now that people see this, across the board. We've got a 
Secretary of Defense, Mr. Gates, who's publicly stated, a 
couple of times, the benefit of having more of an investment 
and working closer with our Department of State, USAID, and 
other people. So, I think this is really important.
    Regarding the downside of policies and the effects of near-
term swings--I'd like to highlight two examples.
    Indonesia and Pakistan, two countries that are in the 
forefront of interests today, for different reasons. Certainly 
Pakistan, with the conflicts and the origins of the terrorist 
activities, and the difficulty in fixing things in Afghanistan 
without addressing the complications, and so forth. We went for 
about 10 years with no relationship, military to military, with 
leaders in that country, because of our policies. I understand 
the motivations and a lot of the history, but the downside was 
that we lost the confidence of many people in that country, and 
more importantly, we lost an ability to influence behaviors. 
And so, it's difficult to recover from that.
    Indonesia, again, different circumstances, but similar 
kinds of challenges. And were it not for the very, very tragic 
tsunami, I'm not sure that we'd be much further along today 
than we were back in 2004. And these are things I have found, 
as I came and appeared before you and your colleagues in other 
hearings, to be difficult sells, frankly. To look at these 
policies in a different light than the viewpoint that 
originated them, and for example to get buy-in to long-term 
investment up front in those things that would be so helpful--
as the Secretary has enumerated here.
    How does all this come together? And what goes first? And 
what really makes a difference? Without stability and security, 
all of the other desired engagements with education and 
politics and commercial things and so forth, are very, very 
difficult to do. In an atmosphere where people are just 
concerned about surviving, day to day with security dangers, as 
we've just seen, certainly in Iraq and Afghanistan and other 
places--it's very difficult to get effective engagement 
programs going. So, the element of security, stability--
uniquely enabled by our military people--again, working these 
things in advance pays huge dividends. And so, again, we're not 
going to undo what's been done in the past, except by our 
actions now and in the future. And I think focusing on those 
for the long term would be very, very helpful.
    Thank you.
    Senator Lugar. Thank you.
    The Chairman. Thank you, Senator Lugar.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you, Secretary Albright and Admiral Fallon, for being 
with us this afternoon.
    I want to pick up, a little bit, Admiral Fallon, on what 
you were just saying about better equipping the military to be 
the face of the United States. What kinds of resources, what 
kinds of assistance, could we provide to our service men and 
women in Muslim countries so that they could better represent 
the United States?
    Admiral Fallon. Thank you. The list of unique things is 
probably pretty short. The best thing we can do is to train and 
equip, in a general way, our people to go about their business 
in the world professionally. Their example, in the way they 
carry out their normal military duties, is hugely important. 
The image that they carry with them, based on their day-to-day 
performance, is really very critical.
    But, we have all kinds of capabilities that can be brought 
to bear, as we do from time to time, in addition to the 
standard professional military expectations. Certainly, 
hospital ships--we were able to very effectively employ those 
in Southeast Asia, and recently in other theaters, in Europe 
and in Latin America.
    We can actually put military people in areas that would be 
considered high risk by other civilian organizations; and, by 
our military presence in some of these places, doing 
humanitarian things, we can supplement our presence with 
civilians who would not likely go unless they had that security 
and stability blanket that comes with our forces.
    And I think there are other things that are really helpful. 
It's been my experience that the thing that really makes a 
difference is people being confident that their own governments 
can take care of them. And the issue of governance, and how 
problematic that is in so many areas, is important.
    What we've tried to do in the military is to train the 
local security forces to be able to take care of business on 
their own. They're the faces that really ought to be on the 
streets. It's great for us to come in from time to time and 
help out and do humanitarian things, as well as our regular 
security business, but a major effort is training and equipping 
those local forces.
    Some of this is policy, and the resources and clearances 
are necessary for our people to engage in different countries, 
and then having our people available to go out and actually do 
the engagement, but--so, there's a list of things, but there 
are not many that are specifically unique to Muslim countries. 
These are just things that would be helpful, in general.
    Thank you.
    Senator Shaheen. Thank you.
    Secretary Albright, you talked about women in the Muslim 
world and some of the women that you encountered. Should the 
U.S. do more to promote women's rights in Muslim countries? 
And, if so, what kinds of activities, efforts, should we 
undertake to do that?
    Dr. Albright. We do need to be true to ourselves and be 
able to explain why we believe that having women politically 
and economically empowered helps to strengthen societies. But, 
we also need to work with the women in a particular country and 
get a better understanding of it. I have found that--as I 
travel, that, for instance, Saudi women want to be heard. Not 
all of them want to drive, but they do want to be heard. We 
need to work with them, take some guidance from them, in terms 
of the things that they would like us to help on.
    We should do everything we can to encourage women to be 
involved in political activities. I have read, with great 
pleasure, that King Abdullah of Saudi Arabia has, in fact, now 
named a woman to be a Deputy Minister. That is a step forward. 
And in other Muslim countries, there are women that are active. 
We should do what we can to help, but we should not do it in a 
way that is counterproductive to the women in the country 
themselves. So, we have to work with them. And I think we make 
a better society if we help women to be politically and 
economically empowered.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. And thank you 
both.
    This question is for both of you, but I will begin by 
quoting from Secretary Albright's testimony. Thank you for 
emphatically stating that our engagement in Muslim communities 
should include explicit support for democracy.
    I recently returned, with a Cardin delegation, from 
Ramalla, Jerusalem, Damascus, and other locations. We had an 
opportunity in our delegation to meet with one of the chief 
negotiators for the Palestinian Authority. And I don't know 
that I'm quoting him precisely, but the essence of one of the 
statements that he made was, ``Anyone who says democracy is not 
appropriate in the Middle East is a racist.'' I'd like to ask 
both of you to respond to that statement.
    And also, Secretary Albright, you mentioned that armed 
groups, such as Hamas, have no place in an election. And yet, 
they won the parliamentary election, regrettably. That allows 
someone like President Assad in Damascus to respond to us that 
he's comfortable hosting a leading Hamas faction in Damascus, 
because they are part of a popularly elected political party.
    So, the second part of the question is, Was there some 
failure in American foreign policy that allowed this Hamas 
success to occur in the parliamentary election, which has 
resulted in a divided government for the Palestinian Authority?
    Dr. Albright. Thank you very much, Senator. I am chairman 
of the board of the National Democratic Institute, and have 
been spending a lot of time on democracy issues. And I do 
believe in democracy, and I do think that there is no part of 
the world that isn't ready for democracy. So, I think we can't 
just decide that some group of people are not ready to make 
decisions about their own lives. It doesn't necessarily have to 
be an American-style democracy, but I have thought that 
everyone is ready for some form of it.
    NDI now has 30 programs in various countries--including 
Muslim countries, and Gaza and the West Bank. So, this is 
something that I feel very strongly about. And what has been 
unfortunate is that the war in Iraq has given democracy a bad 
name. You can't impose democracy; you have to support it. And 
I've worked very hard on that.
    On the issue of Hamas, it is a very complicated aspect of 
this, because what happened--and I speak only for myself--is 
that the U.S. pushed for those elections at a time when it was 
unclear as to whether Hamas was going to give up its violent 
approach, in terms of participating in a democratic process. 
I'm very glad that Senator Mitchell is the negotiator, because 
he understood what happened in Ireland, where the IRA split in 
a way that there was a political arm, Sinn Fein, that could be 
dealt with, that allowed it to be part of the political 
process. And that hasn't happened with Hamas.
    So, I think there should be an entry fee for entering into 
a democratic election, and Hamas did not--was not asked to pay 
that entry fee.
    Senator Wicker. May I interject? Should they have been 
prevented from offering candidates in the election?
    Dr. Albright. Well, I think there was a real question about 
the timing of the election, frankly.
    Senator Wicker. I understand.
    Dr. Albright. They could have, maybe, offered candidates 
but the goal should have been to divide some of Hamas, those 
who are willing to recognize Israel, give up violence, and then 
live up to former agreements from those who are not.
    The reason why Hamas actually did as well as it did, is 
that people need to vote but also to eat. Democracy has to 
deliver. And so, Hamas and Hezbollah, and other organizations 
sometimes, are providing important services to the people. And 
therefore, part of what has to happen--and it goes to your 
point earlier, Senator Lugar--is, there has to be economic work 
and education and a way that people see some benefit to 
democracy. Hamas did not win by that much in each of the 
districts, but it was primarily, I think, because they were 
delivering, and Fatah wasn't.
    Senator Wicker. Admiral.
    Admiral Fallon. Certainly, the Secretary is the expert in 
the political dimensions here, but I'll tell you that, from my 
experience, people around the world like choices. They don't 
like to be told they have to do things. And getting back to an 
earlier comment about the Taliban in Afghanistan, the people 
don't like the Taliban. They've had a good taste of this. And I 
recall, back in Iraq, a year or so ago, Governor of Anbar 
telling me, you know, ``We've had al-Qaeda; we don't like 
them.'' But, people have to have some confidence that there's 
an alternative. And I think trying to set the conditions that 
allow opportunities so the people do have choices is really 
important.
    Senator Wicker. Thank you. And having been to the Middle 
East, I can tell you that Secretary Mitchell is universally 
well-received as an envoy from the United States.
    Madam Secretary, I'm glad that former Secretary Kissinger 
is part of a group that spoke with a unified voice on this 
issue. You say ``religion matters,'' and you ask the question, 
``What is Islamic terrorism?'' I think we'll agree, there is 
such a thing as Islamic terrorism. Secretary Kissinger said 
publicly, with respect, that, ``One of the things that is 
needed is for an Islamic reformation.'' Would you respond to 
Secretary Kissinger's statement? Do you agree with that?
    Dr. Albright. I think that--and it's something that I 
answered, partially, to Chairman Kerry--is that some of the 
changes have to come from within Islam, that they--they have a 
process whereby there is discussion and debate within the 
Muslim community, but it's nothing that we can tell them to do. 
I don't think it's possible for us to tell them, ``Have a 
reformation.'' But there are those--and I have met many 
Muslims--who see that there needs to be some approach that 
allows them to have greater debate. But, it is not up to us to 
tell them to do that.
    Senator Wicker. Thank you, ma'am.
    The Chairman. Senator, we're going to our next panel. I 
think we're going to have a couple of experts who can sort of 
help address some of the specifics of that. And it really is an 
interesting question.
    I might just comment also, quickly, that when Secretary 
Albright says that there wasn't a, sort of, entry fee, if you 
will, to be paid, and the opponents were unable to deliver 
services, and Hamas could--I think it really underscores one of 
the great missed opportunities, frankly, for the West with 
respect to this entire process. I know that, at the time, the 
Palestinians did not want to have the elections; they wanted 
them delayed, because they foresaw the difficulties. The 
Israelis, likewise, foresaw the difficulties. And frankly, we 
are the ones who insisted on the election taking place, and 
then we're surprised with the results of the democracy that we 
had insisted on. So, it's really part of the convoluted history 
of, you know, bad vision and policy. It's the question I asked 
about the policies and what their out--you know, implications 
are.
    I would also add that I remember visiting with President 
Abbas the day he got elected in 2005, and he explained to me 
that he knew very well what the challenge was that he faced, 
but he didn't know how he was supposed to meet it, because he 
didn't have the resources. And frankly, for about 4 successive 
years, we, the West, as a whole, and some neighbors in the 
vicinity, ignored his needs. And they never had the ability to 
deliver and develop the governance that we've always demanded 
of them.
    So, in many ways, you know, we all, sort of, share some of 
the responsibility for where we find ourselves now, and it's an 
interesting part of the history of this.
    But, I do think the next panel can get more specific on 
some of this, which we look forward to.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to thank you for 
holding this hearing. And I'm pleased, also, to hear--which I 
totally agree with--this is just the first step. This is 
clearly one of the most important questions we are going to be 
dealing with in this Congress and, I think, Congresses to come, 
unfortunately.
    Secretary Albright, what of the tools of public diplomacy--
I mean, a lot of this is about public diplomacy--as you said, 
you brought public diplomacy to the State Department--what 
tools of public diplomacy do you think are most useful in 
engaging with the Muslim world?
    Dr. Albright. Senator, I think that there are a number of 
them. First of all, you know, when we think of public 
diplomacy, most people think it's us talking at them. For me, I 
think one of the most important parts of it is listening and 
getting a dialog going. Exchanges, whether they are of students 
or intellectuals or opinion leaders or legislative leaders, are 
a very important part.
    We also need to be more attuned to modern technology. Our 
competitors know how to use a lot of new technology, so we must 
be able, as innovators, to use every aspect. And I hope that, 
as the new people get into place, then the Board of 
International Broadcasting basically can look at a variety of 
those tools.
    And then, we also ought to use their tools. I don't think 
it hurts if we go on al Jazeera in order to explain ourselves. 
And so, President Obama did al Arabiya. It is very important 
for us to tell our message, but also to listen. So, the tools, 
I think, should be those that allow exchanges, visas, all those 
various aspects that bring us into contact on a number of 
different levels.
    Senator Kaufman. You know, I'd really like you to think 
about this--American centers, you know, and how we deal with 
this. I--it isn't just the cold war. I was in Johannesburg, 
where Libra Yosi had the--used to have the library there, and 
Mandela and Umbeki, and all the leaders of the ANC came into 
that library in order to learn about democracy. And when we 
talk about democracy, and wanting to force a democracy, I think 
giving people an opportunity to kind of read history and see 
history is really an extraordinary thing. And I also understand 
the incredible security problems we have. But----
    Dr. Albright. I think it would be wonderful to do them. And 
I think it is the security issue--I just know how awful we felt 
when we had to close down a lot of it. And--it's very 
difficult--and I remember, as a professor, traveling around and 
visiting the places, and having opportunities to give lectures 
and various things. So I agree, and I hope we can figure it 
out.
    Senator Kaufman. Admiral, I can't think of better words 
than ``actions speak louder than words,'' and I think you are 
absolutely right. What are some of the actions that you think 
we should take that would send a message to the Muslim world?
    Admiral Fallon. If I could follow up on the questions you 
asked----
    Senator Kaufman. Sure, absolutely. Yes, thank you.
    Admiral Fallon [continuing]. The Secretary, to answer this 
question, because I think there are things that would be 
impactful immediately. In central Asia, which is a majority 
Muslim population, in just about every country, there is 
virtually no impact--zero--from U.S. media. People hear what 
they've traditionally heard in that area, and that's Russian 
language T.V. broadcast, because it used to be part of the 
former U.S.S.R. And if you would ask any of our ambassadors, 
they would, I expect, concur, U.S. television would be 
extremely useful. Not easy, but certainly not grossly 
expensive. And it's something that I think would have an 
impact, because it would give people an opportunity to hear 
something else. We don't have to aim it to them, we can just 
let them have access into things like the way we run our 
business and so forth. I think it would be immensely useful.


    Al Jazeera: The President did Al Arabiya. I did an Al 
Jazeera interview last year, actually the year before last now, 
that hadn't been done before. I did it on the Arabic channel. 
And I thought it was a tremendous opportunity to answer some 
tough questions, but to let people see that we weren't 
intimidated, We need to go out and do them. I think things like 
that are really important. For a lot of reasons, we shy away 
from those things.
    I share your conviction that the small outreach centers--
the libraries and information stations in other countries--are 
of immense value. Plainly speaking, this comes down to a 
willingness to take risk and making judgments about risk, every 
day. It's relatively--however difficult in implementing, 
relatively easy to give blanket guidance regarding risk. So, 
``We've got a terrorist threat here; can't do this, can't do 
that.'' So people immediately go to ground, and we put policies 
in place that prevent us from acting. Walls go up and you can't 
get there.
    I think that we need to consider local situations, empower 
our leaders on the scene to be able to make choices and make 
decisions, and to flex, as they see things. But, until and 
unless we can actually get these places open so people can come 
to them, we will not progress. The tremendous impact of our 
troops in Iraq, for example, getting out from behind the walls 
and among the population--that is phenomenal in helping us to 
recover that security situation. In a more peaceful 
environment, in these other less violent countries, even more 
leverage, because there's less intimidation on the front end.
    So, you can't easily edict these kinds of things, from a 
policy standpoint, but I think we can try to build in the 
flexibility and encourage our people on scene to make 
decisions. Certainly, there's risk entailed every day, but, 
then again, crossing the street around here is a challenge 
sometimes.
    Senator Kaufman. Great.
    Admiral Fallon. Thank you.
    Senator Kaufman. Thank you, Mr. Chairman.
    I've got to make one comment, and that is, with the 
discussion of Al Jazeera and Al Arabiya, we have a station, 
called Al Hura, that 27 million Arabs listen to every week, and 
a radio station called Sawa, which 20--17 million listen to. 
So, we have good communications. And I think the more we 
develop this--Al Jazeera has a budget of 300--over $300 
million, Al Hura has $100 million. The most powerful economic-
political machine in the history of the world--the United 
States--is spending one-third on satellite television than Al 
Jazeera is spending on theirs. So, I think, you know, an 
opportunity--we have an opportunity to do these things, and I 
think you are absolutely right, in terms of what we should be 
doing and how broad our public-diplomacy reach should be.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    We have a vote on. We're on the back end of the vote. 
Senator Gillibrand, you should have time to be able to get 
through your round, and then there's a grace period, and I'll 
tell them that you're on your way, to cover you.
    Meanwhile, Senator Feingold is on his way back here to 
continue the round of questioning, and I'm going to go and come 
back immediately. So, Senator Feingold did want to ask this 
panel, if he has a chance--and I know he's on his way; and then 
we'll keep rolling through. Thanks.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you, to our esteemed guests.
    Secretary Albright, I'd like to ask you a little about 
Pakistan. In your testimony, you said that we need to repair 
our relationship with Pakistan, and the primary challenge is 
governance. I want to talk a little bit about, and ask your 
opinion on: What types of investments and what type of work can 
we do with the Pakistani leadership that will be helpful? And, 
in particular, I want to ask about--certainly, there's very 
large refugee populations in the FATA region. And should we or 
should we not be investing in education, health care, economic 
development, types of microlending that could create futures 
for families and people that live there, so that we don't have 
the ease with which the Taliban or al-Qaeda can recruit now in 
areas where there is extreme poverty and a lot of hopelessness? 
I'd like your views on which kind of investments America should 
look at, and what kind of strategy, in particular, should we be 
engaged with in Pakistan to help with the issue that you bring 
our attention to, which is governance?
    Dr. Albright. It's so nice to see you, Senator.
    I think that Pakistan provides more problems, I think, than 
any other country. I've often said it has everything that gives 
you an international migraine.
    It has nuclear weapons, poverty, extremism, corruption, and 
is in a very difficult location--and it has a weak government. 
I think that we could do better by providing assistance that 
would help on economic issues, such as education and health. 
This has been suggested previously by Senator Biden and Senator 
Lugar. The question is how to decide what the amount is, and 
then to whom to give it, and whether it should be distributed 
to nongovernmental organizations, or in some other ways that 
doesn't get caught up in the troublesome parts of the system.
    The problem with it is that it will be hard to show 
immediate results to the taxpayers of the United States, who 
are being asked to do many things at the moment They will want 
to know, what are we getting for that dollar? But, I think our 
assistance can be invested well--in education, for instance, 
because part of the problem is that the madrassas are educating 
some of the young people in ways that are not helpful. So, 
putting money into those particular programs through 
nongovernmental organizations, and then adding some to help 
governance and institution-building is very important.
    Senator Gillibrand. And do you have any thoughts about 
processes to put in place for oversight and accountability? 
When I visited Pakistan, one of the generals that I spoke to--
his largest concern was that there is no way, with billions of 
dollars that are given to the government, that we've ever had, 
to establish some level of accountability so that investments 
are going in the places where they're intended. Do you have any 
thoughts about--and maybe, Admiral Fallon, this is an area 
where you have expertise on--if we do continue investment, and 
we want to do investments in certain areas to have a long-term 
intended result of combating terrorism, what would your 
recommendations be for how we, not only deliver the funds, but 
how do we keep accountability so that the American taxpayer 
knows that these investments are to keep their children safe?
    Admiral Fallon. This is a complex issue, for a lot of 
reasons. We provide assistance to foreign countries, and many 
are very grateful for that assistance, but they are sensitive 
to the fact that the package comes with lots of strings. And 
it's something we have to really be careful of. There are some 
things that we can do on our own, where we can maintain the 
accountability for such things. And in the business of security 
assistance, we have a number of these procedures that are 
pretty well inscribed in policy. And I think--taking the 
appropriate steps to ensure that we abide by the regulations 
and that we don't create more problems for ourselves--but, is 
important I think we have to be sensitive to the fact that 
people are proud, particularly in Pakistan.
    There are a lot of things that the Pakistanis are accused 
of; but, my experience is, they are proud of their 
achievements, and there's a significant well-educated, 
hardworking middle class in this country, and they would like 
to be recognized as such. So, I think we need to be sensitive 
to that.
    But if I could piggyback on something the Secretary said, 
there's some expectation that we're going to have instant 
results, you know, we're going to make an appropriation, and 
next year the seeds will sprout and everything will be 
wonderful. Just doesn't work that way. It requires long-term 
investment.
    And again, we have, for a lot of reasons that this 
committee or the graybeards here on the committee would 
certainly know a lot about, we enacted policies, in past 
decades, that have now come home to roost--in many respects, 
because we just had no way to leverage, no way to get inside 
and actually have influence on either the way money was spent 
or in the priority of things.
    So, as you consider the policy implications of various 
laws, just a recommendation to try to take the long view, 
whenever possible, because the issues in Pakistan are not going 
to be solved overnight; it's going to take a long time.
    Senator Gillibrand. Thank you both. I would love to have 
this conversation last for many, many more minutes, but I do 
have to go vote. So I'll come back, if you're still--I'll ask 
more questions.
    Thank you.
    Senator Gillibrand [presiding]. We will put this hearing 
into recess until the chairman returns so we can continue the 
panel.
    Thank you.
    [Recess.]
    The Chairman [presiding]. Folks, thank you for coming back 
to order. I apologize, but, as is often the case, the floor 
schedule is clashing with the hearing schedule, and that 
happens around here a lot. The result is, we actually have a 
couple of votes coming, so it's just going to truncate the 
process. So, we're going to have to wrap up this panel and try 
and get started with the next panel, and just be a little 
flexible.
    If I could just ask you both sort of a quick question, as 
we--it struck me, in the last trip that I took, that, more than 
ever, there has been a transformation, to some degree, in the 
entire arena of South Asia, Middle East. And what we viewed 
previously, almost exclusively, as sort of Arab-Israeli and the 
Palestinian issue, is transforming, now, into moderates versus 
extremists. And that secular governments, secular moderate 
governments, Arab governments, are increasingly concerned about 
this radicalization that is taking place.
    Sort of a last question on the table--and we've talked 
about the public diplomacy, we've talked about the policies 
themselves, we've talked things--but, is there any major step 
or initiative that, in your judgments, could have the greatest 
impact? Or is there some outreach to a particular entity, or 
group of people, whose engagement might make the greatest 
difference in pulling us back from this precipice?
    Secretary Albright.
    Dr. Albright. Well, I believe--and I think it's the new 
modus operandi of the Obama administration, as well as for you, 
Mr. Chairman. The trip that you just took was exceptionally 
important, in terms of the countries and the timing--looking 
for partners among the Arab or Muslim governments, to see if 
they can help us.
    I also believe that there is no incompatibility between 
democracy and Islam, and that it is therefore vital to work on 
governance issues.
    And then, if I might--and it's the basis of my book about 
the role of God and religion--I think that religious leaders 
can play a very important role, in terms of bringing various 
groups together in conflict prevention, and get ahead of the 
issue. I wouldn't have religious leaders negotiating, but I 
would have them there. And also young people. I really think--
and you're going to hear from Eboo Patel, in terms of--I think 
the next generation is the one that really has to be worked on. 
But----
    The Chairman. But, if I----
    Ambassador Albright [continuing]. May I say, Mr. Chairman, 
I think this is an extremely important set of hearings. And to 
the extent that I can be helpful in a continual way on this, I 
would be very pleased to do so.
    The Chairman. Well, you've been enormously helpful to be 
here today, and I really want to look to you for advice and 
counsel and help as we go forward. And we will go forward, and 
I just commend everybody, though we're not in the job of 
selling books on the committee, but ``The Mighty and the 
Almighty''--I feel like a talk-show host or something, but----
    [Laughter.]
    The Chairman [continuing]. The introduction by President 
Clinton--but it's a terrific piece, and it does confront a lot 
of these issues. And in the next panel, we have the ``Who 
Speaks for Islam?'' These are important books, and it's 
important for all of us to try to understand this better.
    So, Admiral, do you want to add a last word?
    Admiral Fallon. Just a couple. There's no magic, here. It 
requires a long-term commitment to try to let people have 
choices in this struggle between extremists and so-called 
moderates or--I think that giving encouragement to the 
majority, who want stability, want security, and they want to 
be able to live their lives in some semblance of normalcy, 
removing some of the obvious distractors--things that are 
pointed to constantly as, ``Well, if only that were solved.'' 
We're not going to solve the Palestinian-Israeli problem. 
They're going to have to solve it, the people there on the 
scene. But, we can help. We can provide encouragement. We can 
try to remove, to the best of our ability, these--I call them 
distractors--that are often put up as excuses.
    And people are people. Human nature being what it is, 
always looking for ways to either have somebody else take the 
hit or to avoid, often, responsibility for our own actions. 
So----
    The Chairman. Right.
    Admiral Fallon [continuing]. Encouraging responsible 
leaders to actually take charge, to step up and take the 
initiative, with some sense that they're not just going to walk 
the plank, that if they're going to operate in an arena of some 
risk and some insecurity, that we'll be there to help them, as 
best we can. And I think that pursuing those kinds of policies, 
long term, gives us the best chance.
    The Chairman. Well, we thank you.
    Admiral Fallon. Thank you.
    The Chairman. We all have to remember that the concept of 
diversity, pluralism, and tolerance didn't even come easily 
here. And the history of my State is written partially by 
people who escaped from a place called Salem, wandered through 
the woods for a winter, and found a place that they named 
Providence, which is now the capital of Rhode Island, as well 
as people who fled to what is now Connecticut, because they 
were seeking refuge from religious extremism. And that was, 
indeed, the original purpose of a whole bunch of folks coming 
to Massachusetts and to this country. So, we've been through 
this.
    You can go to Europe in the 1600s, 30 years of a war 
between Catholics and Protestants, and opportunists who took 
advantage of their struggle. And an awful lot of people have 
died in the name of someone's sense of their rectitude about 
the good scriptures of any religion.
    So, as Madeleine Albright said today, the Bible and the 
Quran are filled with a choice of which rhetoric you want to 
choose to employ, and you can make war or you can make peace. 
That's our struggle. And we are going to continue to explore it 
in greater detail, and uninterruptedly, I hope, on occasion.
    But, I thank you so much for being here today. Thank you 
very much. Thank you, Secretary. Thank you, Admiral.
    [Pause.]
    The Chairman. Now, to bring our second panel to the table, 
if we could, as fast as possible. Thank you very much for 
joining us.
    Dalia, would you begin? Thank you.
    If we could try to keep opening statements to 5 minutes. 
I'm going to have to disappear again, because there's a vote 
on. I'll try to wait as long as I can, in hopes that someone 
appears to continue. If they don't, we'll have to recess.
    Thanks, Dalia.

 STATEMENT OF DALIA MOGAHED, EXECUTIVE DIRECTOR, GALLUP CENTER 
               FOR MUSLIM STUDIES, WASHINGTON, DC

    Ms. Mogahed. Mr. Chairman, thank you very much for inviting 
me to share the findings of our massive poll on Muslim opinion 
around the world. It's a complicated issue, and so, for the 
sake of time, I will get just--get right to the highlights.
    Though many have weighed in on the question of whether 
there is an inevitable clash between Muslims and the United 
States, and the West as a whole, the group that we seldom hear 
from are ordinary people. And that's why I felt that it was 
very important for our research to be heard by this panel.
    The Chairman. Could you just tell us quickly----
    Ms. Mogahed. Sure.
    The Chairman [continuing]. How you--who you are and how you 
do that?
    Ms. Mogahed. OK, absolutely.
    Ongoing since 2001, Gallup has conducted tens of thousands 
of hour-long, face-to-face interviews with Muslims in more than 
40 nations, including Europe and the United States. We spoke to 
men and women, young and old, educated and illiterate, from 
urban and rural settings. In totality, we surveyed a sample 
representing 90 percent of the global Muslim population, making 
this the largest, most comprehensive study of contemporary 
Muslims ever done.
    Our research uncovered a number of surprising insights, but 
the most important was this. A massive conflict between the 
U.S. and the Muslim world is not inevitable. Our differences 
are driven by politics, not a clash of principles. Our findings 
suggest that Americans and Muslims, who are Asians, Arabs, and 
Africans, share a great deal in common, but that three primary 
filters shape the views of those who disapprove of the U.S. 
They are perceptions of being disrespected, politically 
dominated, and anger at acute conflicts.
    To improve relations and further decrease the appeal of 
violent extremism, we must turn to what I will call the three 
R's: Resolution of conflict, political and economic reform, and 
mutual respect.
    So, contrary to popular media images, residents of Muslim-
majority countries share a great deal in common with many 
Americans. This includes a shared admiration for democratic 
values and good governance, valuing faith and family, and a 
good job, as well as an overwhelming public rejection of 
violent extremism against civilians.
    Most agree that interaction between Muslims and Western 
communities is more a benefit than a threat. And majorities 
worldwide, from Boston to Baghdad, also say better relations 
between the two communities is of personal importance.
    In general, Muslims around the world are slightly more 
likely than the American public to unequivocally reject 
targeting civilians by individuals or the military. Our study 
found that those who sympathize with attacks on American 
civilians support that position by using political ideology, 
not religious fervor. In contrast, those who say that terrorism 
is wrong explain that position using religious prohibitions on 
murder. This means that what is at the heart of support--public 
support for terrorism, is not religious extremism, but an 
extremist political ideology.
    Furthermore, Muslims are more likely than the American 
public to say that they themselves are afraid of being victim 
to a terrorist attack, and feel--even more often mention this 
than the American public--that they must work to stop violent 
extremism in their own communities. So, though violent 
extremism may seem to be at the heart of what divides the U.S. 
and Muslims around the world, it is actually our common enemy.
    With so much shared, why do so many in Muslim-majority 
countries have unfavorable views of the U.S.? Rather than a 
hatred of our principles, three policy-driven perceptions drive 
the views of those who disapprove of the United States. They 
are anger at acute conflicts, perceived political domination, 
and disrespect.
    Acute conflicts begin this list. Most believe the invasion 
of Iraq did more harm than good, and very few believe that we 
take an evenhanded approach to the Palestinian-Israeli 
conflict. In addition to these conflicts, as you pointed out, 
Mr. Chairman, other events, such as abuses in Abu Ghraib and 
Guantanamo Bay, contribute to perceptions of being under 
attack.
    Political domination is the second, and it's very important 
to understand that many Muslims around the world admire what 
they say are universal values that are practiced so well in the 
West, including good governance and self-determination, as well 
as human rights. However, they doubt that the United States--
they are skeptical as to the United States true intentions in 
promoting these values in their region, and point to our 
support, or our perceived support, for dictatorships.
    Finally, disrespect. And I will spend a few minutes on 
this, because it's so important. When asked what the West can 
do to improve relations with the Muslim world, whether we were 
talking to someone in Casablanca or Kuala Lumpur, the most 
frequent response was for the West to demonstrate more respect 
for Islam, and to regard Muslims as equals, not inferior.
    Where does this perception of disrespect come from? 
Ironically, it stems from the perception that we don't live the 
values that they so admire about us in our treatment of them--
rule of law, self-determination, and human rights. Many believe 
that the U.S. is denying Muslims these rights by supporting 
dictatorships, direct occupation of Muslim lands, and what is 
seen as passive support for Israeli violence.
    To explain the perceived gap between America's espoused 
values and its treatment of Muslims, or perceived treatment of 
Muslims, they turn to this idea that we must be singling them 
out and looking at them as less than we are.
    What is the way forward? And I will refer to the same 
report that Secretary Albright mentioned, the ``Changing 
Course'' report put out by a high-level commission. I'm going 
to focus on one specific aspect of that report, in addition to 
what I just said, which is this idea of mutual respect. How do 
we show mutual respect?
    First, we move, think and speak and act to the reality that 
Muslims are allies, not suspects, in the fight against violent 
extremism. We must talk about this issue by recognizing that 
they are the primary targets of terrorism.
    This will mean deemphasizing the unquenchable demand for 
mainstream Muslims to condemn terrorism, again and again, as if 
this assumes their co-membership in one group with the 
terrorists, instead of with us, as fellow victims of terrorism.
    Terms like ``Islamic terrorism'' or ``jihadists'' glorify 
the terrorists by giving them religious veneration. Instead of 
using terms like this, or using terms even like ``radical 
Islam,'' which is a little like saying ``totalitarian 
democracy''--that's simply a contradiction in terms--we should 
use a term simply like ``bin-Ladenism.'' And----
    The Chairman. Could I stop you there?
    Ms. Mogahed. Un-huh.
    The Chairman. Pardon me, because I have some questions, but 
I need about 2 minutes to go vote.
    Ms. Mogahed. Absolutely.
    The Chairman. So, we need to recess until we get back, 
and--so, we'll stand in recess for a few minutes.
    Thank you.
    [Recess.]
    Senator Kaufman [presiding]. We'll call the committee back 
to order, and we'll continue with the testimony by Dalia 
Mogahed.
    Ms. Mogahed. Thank you.
    Second, we will have to condemn Islamophobia as un-
American. This is where the U.S. must stand head and shoulders 
above what sometimes seems as Europe's less-developed 
comprehension of free speech. We don't use racial slurs in 
public, not because they are prohibited in the legal realm, but 
because our society has evolved beyond that in the moral realm. 
European societies, for whom living in a multicultural society 
is still relatively new, must grow in the same way. This also 
includes constructive exchange in accurate depictions of media.
    Three is listening. While many Muslims are critical of 
actions carried out by both our government, as well as their 
own, from the wars in Iraq and Gaza to economic corruption and 
lack of freedom, the majority reject terrorism as a legitimate 
response. To further weaken the extremists, we must listen to, 
not necessarily agree with, mainstream Muslim's concerns over 
injustices, and engage those peacefully working to address 
these concerns.
    And finally, I'll end with the vital role for Muslim 
Americans to play. Not only are Muslim Americans ambassadors of 
America's inclusiveness in engaging Muslims around the world, 
but represent a valuable brain trust for crafting smart, 
equitable policies for an interdependent world. Groups like the 
Muslim congressional staffers and many other groups are vital 
resources for thinking about these issues. In addition, Muslim 
Americans' legal and social welfare in their own country is 
viewed as a litmus test for America's position toward Muslims, 
in general. We must therefore continue to promote our core 
American values of due process, justice, and equality in our 
treatment of all people.
    Thank you.
    [The prepared statement of Ms. Mogahed follows:]


                 Prepared Statement of Dalia E. Mogahed

    Mr. Chairman, ranking member Lugar: Thank you for inviting me to 
share findings from Gallup's ongoing research on Muslims around the 
world, and what our analysis suggests is the best way forward in 
reversing the apparent downward spiral in the relationship between the 
United States and these diverse communities. This is a complicated 
issue, and given the time constraints of this hearing, my remarks will 
necessarily sound general. I apologize for this, but I would like to 
just outline the framework for tackling this challenge. These ideas are 
more fully developed in my book,\1\ along with a new report on Muslim 
Americans to be released Monday, which we'll make sure all of you 
receive.\2\
---------------------------------------------------------------------------
    \1\ Who Speaks for Islam? What a Billion Muslims Really Think, John 
L. Esposito and Dalia Mogahed (Gallup Press, 2008)
    \2\ ``Muslim Americans: A National Portrait,'' Gallup Center for 
Muslim Studies, March 2009
---------------------------------------------------------------------------
    Many claim to speak for Muslims, and therefore an accurate 
representative understanding of this silenced majority from their own 
perspective is a critical first step to building effective strategies 
to improve relations. My remarks this afternoon reflect extensive 
Gallup research on global Muslim attitudes. Ongoing since 2001, Gallup 
has conducted tens of thousands of hour-long, face-to-face interviews 
with residents of more than 40 nations with majority or substantial 
minority Muslim populations. The sample represents residents young and 
old, educated and illiterate, female and male, and from urban and rural 
settings. In totality, we surveyed a sample representing more than 90% 
of the world's 1.3 billion Muslims, making this the largest, most 
comprehensive study of contemporary Muslims ever done.
    Our research uncovered a number of surprising insights, but the 
most important was this: A massive conflict between the U.S. and 
Muslims around the world is not inevitable. Our differences are driven 
by politics--not a clash of principles. Our research suggests three 
primary filters shape Muslims' negative views of the U.S.: Perceptions 
of 1. disrespect; 2. political domination; 3. acute conflicts. To 
improve relations and further decrease the appeal of violent extremism, 
we must turn to what I will call the 3 R's: Resolution of conflicts, 
and Reform and Respect, rather than looking to religious explanations 
for Muslim behavior.
Common Ground
    Contrary to popular media images, residents of Muslim majority 
countries around the world share a great deal in common with most 
Americans. This common ground includes an admiration of democratic 
values and good governance, valuing faith and family, and an 
overwhelming public rejection of violent extremism. Ordinary people 
around the world also agree that greater interaction between Muslim and 
Western communities is more a benefit than a threat, including more 
than 70% of Americans. Majorities worldwide, from Boston to Baghdad, 
also say better relations between these communities is of personal 
importance.
    Our findings suggest anti-American sentiment is not borne out of a 
religiously inspired hatred of Western culture. For example, though 
anti-American sentiment is rampant in many Muslim majority countries, 
especially in the Middle East, it is not shared by Muslims in sub-
Saharan Africa. At the same time, it is not exclusive to Muslims. Less 
than 10% of the general public in Saudi Arabia, Egypt, Germany, and 
Spain approved of U.S. leadership in 2008, whereas strong majorities--
more than 70% of Muslims in Mali and Sierra Leone expressed approval. 
Moreover, even those Muslims who view the U.S. and the U.K. negatively 
have a neutral to positive view of France and Germany--in fact, as 
positively as they view other Muslim majority countries. These results 
suggest Muslims' views of countries fall along policy and not cultural 
or religious lines.
    Despite widespread disapproval of U.S. leadership, Muslims 
worldwide said they in fact admired much of what the West holds dear. 
When asked to describe what they admired most about the West in an 
open-ended question, the most frequent response was technology, 
expertise, and knowledge; the second most frequent response was freedom 
and democracy. Moreover, when Americans were asked the same question, 
the top two responses were identical. Majorities, including more than 
80% of Egyptians, say that moving toward greater democracy will help 
Muslims progress. Contrary to what might be assumed in light of the 
Danish cartoon crisis, Muslims around the world, in majorities greater 
than 90% in Egypt, Indonesia, and Iran said they would include free 
speech as a fundamental guarantee if they were to draft a new 
constitution for a new country.
    However, while acknowledging and admiring political freedom in the 
West, Muslim communities did not favor a wholesale adoption of European 
models. Very few associated ``adopting western values'' with Muslim 
political and economic progress. Our data suggest that while admiring 
fair elections in the West, many Muslims envision a democratic model of 
their own. We found the majority in virtually every country surveyed 
believed Sharia should be at least a source of legislation.
    At the same time, a vast majority of those surveyed, in addition to 
their admiration for political freedom in the West, also said they 
support freedoms of speech, religion, and assembly--as well as a 
woman's right to vote, drive, work outside the home, and lead. In 
addition, a mean of 60% say they would want religious leaders to play 
no direct role in drafting a country's constitution (and even among 
those who take the contrary view, most would want clerics limited to an 
advisory function). So while Muslim support for Sharia is high, so is 
their support for democratic and egalitarian values, including women's 
rights and freedom of speech. At the same time, majorities do not want 
a ``theocracy'' or a government run by presumably infallible theocrats.
    Counter intuitively, our analysis suggests Sharia is viewed as 
representing ``rule of law''--a set of rules and rights that no 
dictator is above because they are God given--unalienable rights 
endowed by the Creator. For example, a near unanimous 96% of Egyptian 
women associate Sharia compliance with protecting human rights. 
Government's role, therefore, should be to protect those rights. Thus, 
complete secularism can mean for many the lifting of all constraints in 
preventing government-sonsored tyranny--in fact taking away people's 
God-given rights.
    Aspirations were also common. When respondents in Muslim 
communities around the world were asked to describe their dreams for 
the future, we didn't hear about waging war against the West, but 
instead we heard getting better work and offering a better future to 
their children. This response was heard among 70% of Indonesians and 
54% of Iranians. A recent Gallup survey found that Americans wanted 
President Obama to talk about `jobs' in his speech to Congress this 
past Tuesday, followed by the wars in Iraq and Afghanistan. The poll 
could have been from any number of Muslim communities.
    Like Americans, the overwhelming majority of residents of Muslim 
communities around the world reject attacks on civilians and consider 
them morally wrong. Those that sympathize with attacks on American 
civilians are no more religious than the mainstream and defend their 
position with political ideology, not religious theology, while those 
who oppose terrorism explain their position in moral or religious 
terms. The most frequent response to what Muslims should do to improve 
relations with the West was to modernize, project a more positive image 
of Islam, and to help stop extremism. It is also interesting to note 
that among the most frequent responses to the question about their 
greatest fear was being a victim of terrorism. Violent extremism is a 
common threat to everyone.
    With so much in common, what is standing in the way of greater 
engagement? Three primarymutually reinforcing perceptions shape 
America's negative image. They are perceptions stemming fromacute 
conflicts, the perception of political domination, and disrespect.


    Acute conflicts: It would be difficult to overstate the sense of 
moral outrage many Muslim communities feel, especially in the Middle 
East, about the acute conflicts currently involving the U.S. as a 
direct or indirect actor. Iraq tops of this list, but also includes 
Afghanistan and the Palestinian-Israeli conflict. Majorities around the 
world, including 90% of Egyptians and 57% of Iranians, believe the 
invasion of Iraqdid more harm than good. Only percentages in the single 
digits believe the West takes an even-handed approach to the 
Palestinian-Israeli conflict. When asked what the U.S. can do to 
improve relations with the Muslim world, people in the Middle East cite 
the U.S. pursuing a more balanced approach to this conflict near the 
top of the list. However, the Palestinian-Israeli conflict is less 
central to Muslims in Asia and sub-Saharan Africa except during raging 
conflict like the past war in Gaza. In addition to these conflicts, 
other events such as abuses at Abu Ghraib and Guantanamo Bay prison 
contribute greatly to the filter of being under attack.

    Political domination: Many Muslims around the world, while admiring 
of Western values, believe the U.S. does not live these values in their 
treatment of Muslims. For example, significant percentages of Muslims 
do not believe the U.S. is serious about democracy in their regions. 
This is the view especially in countries where democratic promotion has 
been the loudest, such as Egypt, where 72% doubt American promises of 
democratic support, and Pakistan, where 55% have this view. Doubting 
American intentions with regard to democracy are closely tied with the 
perception that America is a hegemonic, neo-colonial power that 
controls the region. More than 65% of Egyptians, Jordanians, and 
Iranians believe the U.S. will not allow people in their region to 
fashion their own political future the way they see fit without direct 
U.S. influence.

    Disrespect: When asked what the West can do to improve relations 
with the Muslim world, Muslims around the world, whether in Casablanca 
or Kuala Lumpur talk about respect. They speak about respect as 
reciprocal and say that Muslims must also show respect for the West to 
improve relations. However, while the majority of Muslims say they 
respect the West, most do not believe the West respects them.In some 
cases, they are right. The majority of Americans also say they do not 
believe the West respects the Muslim world, and when asked what they 
admire most about the Muslim world, the most frequent responses were 
``nothing,'' followed by ``I don't know.''


    What Muslims say they admire most about the West is what they 
associate most strongly with the U.S. citizens' liberties. At the same 
time, many believe the U.S. is denying Muslims these same rights of 
self-determination and human rights through support for dictatorships, 
direct occupation including human rights violations, and what is seen 
as tacit support for Israeli violence.
    To explain the perceived gap between America's espoused values of 
democracy, human rights, and self-determination on one hand, and its 
treatment of Muslims on the other--Muslims turn to the belief that 
America and its allies must be hostile toward Islam and regard Muslims 
as inferior. Meaning, since the perceived way Muslims are treated is 
antithetical to cherished Western values, these same Western powers 
must be hostile to Islam and Muslims. This perception is compounded by 
anti-Islamic rhetoric, or the desecration of Islamic symbols, 
especially by those in positions of authority.
    So, not surprisingly, when we asked Muslims worldwide what the West 
can do to improve relations with the Muslim world, the most frequent 
responses were for the West to demonstrate more respect for Islam and 
to regard Muslims as equals, not as inferior. For example, when we 
asked this question of Lebanese respondents just days after the end of 
the conflict between Hezbollah and Israel--a conflict respondents 
blamed on America almost as much as it is blamed on Israel--people had 
this to say:


          ``They (the West) should consider us humans and should end 
        war and be at peace with Muslim World.''

          ``West should treat Muslims equally to improve their 
        relations because they look down upon us.''


    Other respondents from around the globe echoed this sentiment. For 
example, a respondent from Morocco said, ``The West has to change and 
moderate their attitudes towards Muslims. They have to not look down on 
our people.''
The New Way Forward
    This analysis was the basis of a new bipartisan consensus report on 
U.S.-Muslim engagement, which I took part in drafting, titled 
``Changing Course.'' \3\ The report's recommendations fall under the 
three R's: resolution of violent conflicts, reform (political and 
economic), and respect (mutual).
---------------------------------------------------------------------------
    \3\ ``Changing Course: A New Strategy for U.S. Engagement With the 
Muslim World''
---------------------------------------------------------------------------
Resolution of conflict
    Muslims, like all people, want to live safe, prosperous, and free 
lives. Resolution of violent conflict and responsible withdrawal from 
occupied land is the most important step we can take to squelch public 
anger at the U.S. This includes the wars in Iraq and Afghanistan, as 
well as continuing to de-escalate tensions with Iran and Syria. These 
also include helping to resolve the Israeli-Palestinian conflict. For 
these reasons, President Obama's immediate selection of envoys to these 
trouble spots was crucial. However, since many of these conflicts are 
likely to rage on for several more years despite our best intentions, 
we will need to manage the interim by setting realistic expectations 
and by speaking and behaving like fair brokers of peace. For example, 
though we seldom talk in these terms, Palestinians need security as 
badly as Israelis and bear the brunt of civilian casualties in the 
conflict. We must therefore talk about and work for security for 
Israelis and Palestinians.
Reform (political and economic)
    Reeling from what appeared to many as disastrous policies promoting 
democracy in the past several years, many are leery of promoting 
political reform. However, ``Changing Course'' \4\ concluded it is in 
our best interests to strengthen institutions of good governance in 
Muslim communities, support democratic processes--not specific 
personalities--and widen our definition of acceptable election 
outcomes. In addition, business partnerships that promote economic 
growth and job creation are important foundations of a thriving middle 
class and civil society, which are the bedrocks of democracy.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
Respect
    Since this is both a priority of President Obama and a critical 
issue from the perspective of Muslims, I will go into the most detail. 
According to our research, ``respect'' is reflected in words and 
actions. The two most significant statements associated with respect 
were refraining from desecrating Muslim symbols and treating Muslims 
fairly in the policies that affect them. Four specific recommendations 
emerge from our research:


  1. Muslims and Americans vs. violent extremism: Our language must 
        reflect the reality that the primary victims of violent 
        extremism are Muslims abroad, and that they fear falling victim 
        to political violence more than Americans do. We are, 
        therefore, natural allies against this common threat. This will 
        mean de-emphasizing the unquenchable demand for mainstream 
        Muslims to condemn terrorism again and again as this assumes 
        their co-membership in one group with the terrorists, instead 
        of with us as fellow victims of the same crime. Use of terms 
        like ``Islamic terrorism'' or ``Jihadists'' glorifies the 
        terrorists with religious veneration, while fueling the very 
        perceptions they work to exploit - that America is at war with 
        Islam.

  2. Condemn Islamophobia as un-American. This is where the U.S. must 
        stand head and shoulders above Europe's underdeveloped 
        comprehension of free speech. We don't use public racial slurs, 
        not because they are prohibited in the legal realm, but because 
        our society has evolved beyond them in the moral realm. 
        European societies, for whom living in a multicultural society 
        is still relatively new, must grow in the same way. With all 
        our faults and ongoing struggles, America has something to 
        teach the world about multicultural relations. We have learned 
        through our civil rights struggle, at least in principle, that 
        our democracy is stronger when it no longer excludes entire 
        segments of its citizens, and that our freedom is protected, 
        not compromised, when our definition of civility includes them.

  3. Listening. While many Muslims are critical of actions carried out 
        by both our government and their own, from the wars in Iraq and 
        Gaza to economic corruption and lack of freedom, the majority 
        reject terrorism as a legitimate response. To further weaken 
        the extremists, instead of defending our way of life, we must 
        listen to--not necessarily agree with--mainstream Muslim 
        concerns over injustice, and engage those peacefully working to 
        address them.

  4. Muslim Americans' vital role. Not only are they ambassadors of 
        American inclusiveness, but as one of the most educated and 
        diverse faith communities in the nation,\5\ they represent a 
        valuable brain trust for crafting smart, equitable policies for 
        an interdependent world. Groups like the Muslim congressional 
        staff's association can be a vital resource for thinking about 
        these issues. In addition, Muslim Americans' legal and social 
        welfare in their own country is viewed as a litmus test for 
        America's position toward Muslims in general. We must therefore 
        continue to promote our core American values of due process, 
        justice, and equality in our treatment of all.
---------------------------------------------------------------------------
    \5\ ``Muslim Americans: A National Portrait,'' released by Gallup 
March 2, 2009 www.MuslimWestFacts.com and www.Gallup.com


    Senator Kaufman. Thank you very much.
    Mr. Patel.

         STATEMENT OF EBOO PATEL, EXECUTIVE DIRECTOR, 
               INTERFAITH YOUTH CORE, CHICAGO, IL

    Mr. Patel. Mr. Chairman, my name is Eboo Patel. I am the 
founder and director--executive director, of an organization 
called the Interfaith Youth Core. Our mission is to spread the 
message of religious pluralism to tens of millions of people 
worldwide, and to train and mobilize tens of thousands of young 
people to be its architects.
    I would like to say that I am the son of Muslim immigrants 
from India. They came to America, not just for the 
opportunities of personal and professional advancement, but 
also for the opportunity to contribute to a nation that was 
built on the contributions of many from all over the world. 
They view my testimony here as a partial fulfillment of their 
American dream.
    Mr. Chairman, I believe that the question of the 21st 
century will be the question of the faith line. That is, how 
diverse religious communities choose to interact, whether that 
interaction moves with conflict or toward cooperation. The 
biggest mistake we can make on the question of the faith line 
is to define it wrong. The wrong definition of the faith line 
pits Muslims against Christians, or believers against 
nonbelievers. If we define the faith line as Muslims against 
Christians, we are left with a world of 2 billion people at war 
with a world of 1.3 billion people. That is an eternal war.
    I prefer to divide the faith line--to define the faith line 
as a line that divides people I call ``religious pluralists'' 
from ``religious totalitarians.'' I have a very simple 
definition for ``religious pluralist.'' It's somebody who 
believes in a society where people from diverse backgrounds 
live in equal dignity and mutual loyalty. I have a very simple 
definition of a ``religious totalitarian.'' It's somebody who 
wants their community to dominate, and everyone else to 
suffocate.
    I believe that young people will make the difference 
between whether we live in a century defined by religious 
pluralism or a century defined by religious totalitarianism.
    Unfortunately, I believe we are losing this battle. And the 
answer to that is very simple. It is because religious 
extremist movements target, in particular, young people. Al-
Qaeda can very easily be understood as a movement of young 
people taking action. Osama bin Laden himself was recruited, 
when he was a teenager, by a man barely a decade older than 
him. When he became a 20-something, he in turn started 
recruiting teenagers for a new global force that he called al-
Qaeda.
    The youth bulge, particularly in the most religiously 
volatile parts of the world, is remarkable. The median age in 
Iraq is 19.5. There are more children in India than are 
citizens in the United States. We cannot forfeit this powerful 
terrain, this major opportunity, to religious extremists simply 
because they are the ones targeting, training, and mobilizing 
these young people.
    The other truth is that young people have played an 
absolutely key role in building religious pluralism throughout 
the ages. Martin Luther King, Jr., was only 26 years old when 
he led the Montgomery bus boycott. He worked, through the 
inspiration of Mahatma Gandhi, arm in arm with the Rabbi 
Abraham Joshua Heschel, and through an inspirational 
correspondence with the Venerable Thich Nhat Hanh, a Buddhist 
monk.
    Mahatma Gandhi, the great Indian Hindu leader, was 24 when 
he started his movement against the racist laws in South 
Africa. And a too-little-known Muslim leader, named Abdul 
Badshah Khan, was a young man when he mobilized thousands of 
Muslims to be part of the movement to free the subcontinent.
    These are the youth leaders of interfaith cooperation. They 
exist amidst us today. We need to be inspiring them, training 
them, and mobilizing them. America and Islam have an enormous 
shared value when it comes to pluralism. As the American 
philosopher Michael Walzer once said, the challenge of America 
is to embrace its differences and maintain a common life. That 
strikes me as deeply resonant with a line from the holy Quran. 
In Sura 49, we are told that god made us different nations and 
tribes that we may come to know one another.
    I think it is--the time is now to declare the 21st century 
the ``Century of Religious Pluralism,'' and to declare this 
generation the architects of that value.
    I have a couple of specific recommendations for the United 
States Government to make. My organization has had a presence 
on six continents. Many of our programs have been facilitated 
by wonderful institutions, like the State Department. 
Unfortunately, too many of those initiatives have been ad hoc. 
I believe it is time to move from scattered initiatives to 
strategic approaches. I believe it is time to go from seeding 
programs to scaling programs.
    Two of my colleagues recently did a tour of European 
countries, where they engaged several hundred mostly young 
Muslim leaders in Europe, and trained several hundred others, 
to be the architects of religious pluralism. Why shouldn't this 
be tens of thousands? It is simply a matter of concentrated 
resources and coherent mechanisms at institutions like the 
State Department.
    Mr. Chairman, imagine if the 2 billion Christians on the 
planet and the 1.3 billion Muslims, the several hundred million 
Hindus, the 50 million Jews, viewed themselves as partners in 
fighting malaria, or AIDS, or the various ills that afflict 
humankind. That is the century we could live in. The United 
States can play a major role in that.
    Thank you.
    [The prepared statement of Mr. Patel follows:]


                  Prepared Statement of Dr. Eboo Patel

Introduction
    Chairman Kerry, Senator Lugar, and esteemed members of the 
Committee on Foreign Relations, thank you for the opportunity to 
testify today on the very important topic of engaging Muslim 
communities around the world. As your invitation to testify indicated, 
before we can engage Muslim communities, we must first attempt to 
understand these communities. My testimony will highlight some of the 
characteristics of Muslim majority countries and the Muslim community 
in Europe. My recommendations for engagement, in turn, are premised on 
the belief that we must involve young people in our strategies and use 
interfaith action to build a better relationship with the Muslim world.
Trends Among Muslim Youth
    There are several factors that underscore the importance of 
engaging with young people.
    Globalization has given rise to unprecedented interaction among 
diverse religious communities around the world. Ultimately, it is young 
people, as they in particular have embraced new forms of global 
communication, who will decide how these interactions tend. This 
increased communication has led to new forms of identity engagement 
amongst youth, which are less reliant on traditional nation-state 
boundaries and more likely to be influenced by transnational factors. 
This interaction can lead in one of two directions: conflict or 
cooperation. The dominant theory that outlines this interaction is the 
``clash of civilizations'' as outlined by Samuel Huntington. 
Alternately, many see the world through a different paradigm, 
separating not civilizations but, in the words of Dr. Martin Luther 
King Jr., those who choose to live together as brothers or perish as 
fools.
    In Muslim majority countries, three additional trends are at work. 
First, there is a youth bulge. In Afghanistan and the Gaza Strip, the 
median age is about 17 years; in Iraq and Pakistan it is barely 20, and 
in Syria and Saudi Arabia the median is about 21.5 years. This trend 
extends all over the Middle East and North Africa--the median age is 
under 27 in Algeria, Morocco, Egypt and Jordan.\1\ How these youth 
express and engage their religious identities has influence far beyond 
their individual reach. Will we have a generation of young people who 
believe that their way of being, believing, and belonging is a barrier 
against diversity, or worse, a bomb to destroy it? Or will young people 
understand their faith as a bridge to promote equal dignity and mutual 
loyalty amongst diverse religious communities? I believe that with the 
appropriate attention and investment, there is an effective way to do 
the latter.
---------------------------------------------------------------------------
    \1\ CIA World Factbook
---------------------------------------------------------------------------
    Second, these youth are faced with changing socio-economic factors 
that create insecurity. There is a clear lack of job opportunities and 
services to meet the needs of these youth. The unemployment rates in 
Afghanistan and the Gaza Strip have been estimated at close to 40%, and 
in Jordan and Iraq this number is around 30%.\2\ Without gainful 
employment and the potential for traditional social roles or upward 
social mobility, these young people are becoming frustrated and lost.
---------------------------------------------------------------------------
    \2\ CIA World Factbook
---------------------------------------------------------------------------
    Third, at this moment, as youth seek identity and purpose in their 
lives, they are confronted with a global religious revival. Scholar 
Thomas Farr writes ``Faith, far from exiting the world's stage, has 
played a growing role in human affairs, even as modernization has 
proceeded apace. Iran's Shiite revolution in 1979, the Catholic 
Church's role in the `third wave' of democratization, the 9/11 
attacks--all illustrated just how important a global force religion has 
become.'' \3\ According to Todd Johnson and David Barrett, 
``Demographic trends coupled with conservative estimates of conversions 
and defections envision over 80% of the world's population will 
continue to be affiliated to religions 200 years into the future.'' \4\ 
Sociologist Peter Berger states that ``the assumption that we live in a 
secularized world is false [. . .] The world today [. . .] is as 
furiously religious as it ever was, and in some places more so than 
ever. \5\
---------------------------------------------------------------------------
    \3\ Farr, Thomas. ``Diplomacy in an Age of Faith: Religious Freedom 
and National Security,'' Foreign Affairs, Vol. 87, No. 2. Pg 110.
    \4\ Farr 112.
    \5\ Berger, Peter. The Desecularization of the World: Resurgent 
Religion and World Politics, Wm. B. Eerdmans Publishing Company, 1999. 
Pg 2.
---------------------------------------------------------------------------
    Religion remains a primary source of identification for many and is 
a robust transnational identifier. Groups who promote intolerance, 
violence, and segregation have used religious identification in young 
people to actively promote division and mistrust. The power of 
religion, however, can be used by youth to build peace and productive 
engagement.
    Youth identity is not an issue that is relevant only in the Middle 
East. Muslim communities in Western Europe are a key demographic that 
cannot be ignored. As of 2003, there were 15 million Muslims in the 
European Union (three times more than in the United States at the 
time). Moreover, in 2003 the Muslim birth rate in Europe was triple 
that of the non-Muslim birth rate. By 2015, the Muslim population in 
Europe will have doubled, while the non-Muslim population will have 
declined by 3.5%.\6\ Many of these European young Muslims face issues 
such as discrimination, economic deprivation, underemployment, and 
residence in ghettoized communities. Among native-born Muslims in 
Europe, there is often a feeling that they do not have a stake in 
larger society, and must choose between their religion and citizenship.
---------------------------------------------------------------------------
    \6\ Taspinar, Omer. ``Europe's Main Street,'' Foreign Policy, 
March/April 2003.
---------------------------------------------------------------------------
    Two trainers from Interfaith Youth Core recently traveled to Italy, 
Spain, France, UK, Netherlands, and Belgium to deliver a series of 
``Religious Pluralism'' trainings to audiences of religious youth, many 
of whom were Muslim. We observed a widespread sense of frustration 
amongst Muslim youth at their inability to freely express their 
religious identity, a feeling of isolation, and a willingness to 
identify oneself in opposition to the larger society. It is imperative 
to engage these groups, increase youth capacity as bridge builders 
between communities, and help them form social networks and 
partnerships beyond their faith communities.
Religious Extremism is a Youth Movement
    The United States can be a better partner in engaging Muslim 
communities around the world by realizing the power of investing in 
young people. If we are not engaging and educating young people in 
interfaith cooperation, there are others who are pushing them towards 
extremism.
    Osama bin Laden, for example, is a brilliant youth organizer. At 
fourteen, he was recruited to an after-school Islamic study group where 
the organizer, a young adult, introduced to him the idea of violence as 
a means towards fulfilling religious obligations. At university, Osama 
fell under the spell of a radical, charismatic teacher, Abdullah Azzam, 
a Palestinian who had joined the Muslim Brotherhood as a young man and 
later helped found Hamas, Azzam wanted to find a way to make Sayyid 
Qutb's vision of the violent overthrow of corrupt regimes a reality. 
Azzam traveled around the world to spread his message, raising money 
and recruiting young people to join the armed effort. He opened dozens 
of recruitment centers, known as services offices. Osama bin Laden was 
the first to answer Azzam's call. At the age of twenty-three, he 
financed Azzam's Peshawar Services Office. It was here that bin Laden 
met a young doctor from a prominent Cairo family, Ayman al-Zawahiri. 
The two were struck by the range, quantity, and commitment of Muslim 
youths pouring into Peshawar, eager to wage jihad. Like entrepreneurs, 
they realized the potential of this massive market of young Muslims for 
the ``product'' of totalitarian Islam. The result of this recruitment 
was an international network of Muslim youths schooled in the ideology 
of totalitarian Islam, taught to hate the ``imperialist infidel,'' and 
trained to kill--and that is who became Al Qaeda.
    Just as a skilled totalitarian youth organizer convinced a young 
Osama to answer the call of jihad through stories of the power of youth 
to return the ummah (collective Muslim community) to glory, so bin 
Laden is doing the same for this generation.
    Bruce Riedel describes al-Qaeda as a set of highly effective 
leaders who have created a compelling narrative, based partly on 
American missteps in the Muslim world, and a remarkably resilient 
organizational structure that seduces a small group of young Muslims to 
destroy in a highly strategic manner.\7\ This combination of effective 
leaders, compelling narrative, resilient structure, willing youth and 
strategic destruction is one that can be defeated with the right 
vision, message and strategy. To counteract those like bin Laden who 
see an inevitable conflict between the Muslim world and the West, we 
must invest in young people to build religious pluralism and 
cooperation and take interfaith action.
---------------------------------------------------------------------------
    \7\ Riedel, Bruce. The Search for Al Qaeda, Brookings Institution 
Press, 2008.
---------------------------------------------------------------------------
Opportunities for Engaging Youth Towards Interfaith Cooperation
    Interfaith action counters the clash of civilizations and is an 
alternative way to engage young people of faith. It focuses not on our 
differences, but on our shared potential. Instead of pitting people of 
different religions against one another in an endless war, interfaith 
action builds mutual respect and understanding through cooperative 
service and constructive dialogue.
    Looking back we see alternative models for how young people of 
faith can positively engage a religiously diverse world. Consider the 
young Martin Luther King Jr., a devout Christian who worked with Jewish 
leaders and used the methods of a Mahatma Gandhi, an Indian Hindu, to 
build a more just and equitable America. Learning from King, we must 
empower young people of faith to work with those of different religions 
to foster peace and cooperation.
    This is not just a Christian or Hindu philosophy, it is also found 
in Islam. The tradition of Islam teaches the importance of interfaith 
cooperation and a central tenet of the tradition is one which embraces 
diversity and promotes pluralism. The Quran states ``O Mankind, We 
created you from a single (pair) of a male and a female and made you 
into nations and tribes, that you may know each other. Verily the most 
honored of you in the sight of God is he who is the most righteous of 
you.'' (Quran 49:13). There are many examples of Muslims who have 
promoted pluralism, from the Muslims in South Africa who joined the 
struggle against apartheid to Badshah Khan, a Pashtun who was inspired 
by Gandhi's non-violent approach, and recruited thousands of young 
Muslims to rally for a free Subcontinent.
    The organization I founded and lead, Interfaith Youth Core, brings 
young people of different faiths together to serve others by building 
houses, serving the poor or restoring the environment. From this shared 
service experience, Interfaith Youth Core helps young people realize 
the shared values of all religions, such as compassion, mercy and 
peace. Service to others and a shared values dialogue help young people 
understand how they can maintain their own faith identity while working 
together with those from different faiths to create not a clash of 
civilizations, but a more peaceful and just world.
    When I attended interfaith conferences as a Rhodes Scholar at 
Oxford, I saw that they were filled with senior religious leaders. I 
also recognized that those who were on the front lines of religious 
violence were not senior theologians, but young people. If movements of 
violent extremism were mobilizing thousands of young people to action 
everyday, and the interfaith movement only involved theologians and 
academics gathering at conferences, we would forfeit the ground to 
terrorists. It was upon this realization that I founded the Interfaith 
Youth Core to build a global movement of young leaders taking action to 
advance religious pluralism.
    Interfaith Youth Core affirms and strengthens the religious 
identity of young people while helping them embrace the vision of 
religious pluralism. We nurture their leadership skills and invest in 
them with resources and opportunities worthy of their boundless 
potential for good. We connect them with one another to form networks 
so they will understand the world's diversity on a personal level and 
be empowered by other interfaith leaders.
    As indicated above, last month two Interfaith Youth Core staff 
members, both Muslim women, embarked on a three week training tour 
across Western Europe supported by the State Department. They conducted 
trainings for about 400 young European interfaith leaders in Belgium, 
the Netherlands, Italy, Spain and France, with the goal of sparking an 
interfaith youth movement across Europe. Many of the communities they 
visited included recent Muslim immigrants to Western Europe, as well as 
established Muslim minority communities. The goal of this training trip 
was to build bridges between communities in Western Europe and 
illustrate a new way of engaging people of different faiths including 
the Muslim community.
    This grant gave Interfaith Youth Core the opportunity to spread the 
message of religious pluralism, expand our network of interfaith bridge 
builders, and gain valuable experience of the context of the countries 
we visited. It gave Interfaith Youth Core the opportunity to begin to 
plant the seed for interfaith cooperation; however a greater investment 
needs to be made to take this to scale.
    We have been on the ground in over a dozen countries, and we 
currently have several more pending requests for our services by the 
State Department. Though this approach is fruitful, it has been too ad 
hoc and scattered; it needs to be more strategic. There needs to be a 
structure in place in government institutions that enable a more 
coherent and full scale approach.
Recommendations:
    The U.S. needs to involve young people in our engagement strategies 
and use interfaith action to build a better relationship with the 
Muslim world. Interfaith cooperation is one most critical issues of the 
21st century and it is imperative to equip young leaders to take 
action. The following are a set of recommendations towards realizing 
this goal.


  1. Promote religious pluralism as a core commitment globally. 
        Religious pluralism in the United States can serve as a model 
        for engaging religious diversity around the world.


   Change the framework of U.S. Engagement with Muslim communities 
        from the ``clash of civilizations'' to the framework of 
        ``pluralism vs. extremism.''

   Rather than the current characterization of counterterrorism 
        efforts as ``freedom and democracy versus terrorist ideology,'' 
        policymakers should frame the battle of ideas as a conflict 
        between terrorist elements in the Muslim world and Islam.


  2. Empower young leaders to advance interfaith cooperation in their 
        communities.


   Government should identify and amplify civil society forces that 
        have innovative and effective models that promote youth-led 
        interfaith cooperation.

   Equip young leaders with the knowledge base and skill set for 
        interfaith action.

   Invest in institutions that focus on increasing the training and 
        capacity building of interfaith leaders.


  3. Continue to prioritize citizen diplomacy efforts for engagement 
        with Muslim communities around the world.


   Facilitate interfaith exchanges, cross-cultural education, and 
        religious literacy programs in a public diplomacy initiative 
        that is coherent, strategic and comprehensive in nature.

   Enable partnerships between U.S. institutions and partners in 
        Muslim communities around the world.

   Highlight the Muslim American community as a key example of 
        America's vibrant pluralism, and use them as citizen diplomats 
        to engage other communities around the world.


              addendum to the testimony of dr. eboo patel
        [At the conclusion of testimony before the Senate Foreign 
        Relations Committee on February 26, 2009, Senator Ted Kaufman 
        asked the panel to forward practical suggestions on how to 
        engage youth in the Muslim world in positive relationships. 
        Over the last 10 years of working with young people, I have 
        learned that we need to empower young people to become leaders 
        and equip them with the knowledge base, skill set, and networks 
        to effectively build pluralism and organize interfaith action 
        inorder to create conditions for peace and stability. The key 
        question is how can we accomplish this?]


    The first step to building pluralism is providing the framework. 
Pluralism has three parts: respect for identity, mutually enriching 
relationships between people of different backgrounds, and concrete 
action for the common good. Correctly identifying ``us'' and ``them'' 
is critical to shifting how young people think about the world and 
their place in it. We want them to know that the line is not drawn 
between Muslims and Jews, or Americans and Middle Easterners. Very 
simply, ``us'' includes all people who believe that we can live 
together in peace, and ``them'' includes those who seek to destroy 
diversity. At this time also let me clarify that when I say 
``interfaith'' in the context of the Muslim world, I mean not only 
engaging with other religions, but confronting internal tensions 
between different sects within Islam.
    In part, this means providing young Muslims both physical and 
intellectual space to discuss issues openly and without fear. We need 
to support organizations that provide such space where diverse young 
people can interact, work, learn and teach. A State Department Official 
estimated that radical groups have spent 70 billion dollars 
proselytizing over the past 30 years. We need to commit to a 
substantial investment to counter the impact of this sustained 
targeting of young people.
    The second step is to provide the skill set needed for organizing. 
We must teach these young leaders how to bring people from different 
perspectives together, facilitate an effective dialogue, and assess 
their communities to identify needs and how they can rally young people 
to address their concerns. As interfaith organizers, these youth will 
be able to take action to build cross-cultural relationships and mutual 
understanding, serve their communities and strengthen the fabric of 
their civil societies.
    The third step is providing the networks of support. Young people 
building pluralism in the Muslim world should be connected to one 
another, but also to Americans building pluralism in the U.S. and 
Germans building pluralism in Germany. International exchanges serve 
this function of networking and connecting young people, as well as 
provide a space for discussing issues and building skills. Rather than 
funding the international exchanges on an ad-hoc basis, we must 
organize a federally funded, cross-departmental investment in a 
strategic international exchange program.
    Above and beyond these physical exchanges, social networks are 
effective points of connection in our globalized era. I would point to 
IFYC's network, ``Bridge-builders,'' where in just five months over 
1000 young people from all over the world have congregated to 
collaborate on events and programs, share ideas, projects and 
resources, and post testimony, photos and videos of their interfaith 
activities. This network opens up a virtual discussion forum to discuss 
the challenges they face in their work and how to overcome them.
    By empowering young people as leaders in their communities we will 
answer their questions of ``Who am I? How do I relate to you? What can 
we do together?'' Just as the youth recruiters of Al Qaeda reach young 
people at an early age with answers to these questions of identity, we 
can equip young people as leaders to build more pluralistic societies 
throughout the Muslim world, and connect them to other young leaders to 
bridge the gap between the West and the Muslim world.


    Senator Kaufman. Thank you.
    Ms. Baran.

           STATEMENT OF ZEYNO BARAN, SENIOR FELLOW, 
                HUDSON INSTITUTE, WASHINGTON, DC

    Ms. Baran. Thank you, Mr. Chairman. Thank you.
    I believe the biggest challenge in outreach programs is the 
inability to identify what it is that America wants from 
Muslims. In other words, what is the purpose of engagement? Is 
it merely to stop terror attacks against Americans and its 
allies? Is it to learn about a religion and its many cultural, 
political, and historic aspects? Is it to genuinely try to 
improve the lives of Muslims, whether they live in Pakistan, 
Somalia, or in America?
    I would argue that we will see an end to terror, 
radicalism, and extremism when our intention becomes the 
empowerment of Muslims so they can achieve their full human 
potential.
    However, for a long time we've been trapped in a war-on-
terror mindset, and thereby forgetting that terror is a tool 
used as part of a bigger strategy. This strategy encourages 
division, separating the West from the rest, so that those in 
the latter category will be left with no choice but to support 
Islamist political ideology.
    I've written extensively about the difference between 
Islam, the religion, and Islam, the political ideology, and how 
we need to expose the extremists' cynical exploitation of their 
religion as a means of convincing the moderate majority of 
their fellow Muslims that the current conflict is religious in 
nature.
    Today, the Islamist movement is, unfortunately, much 
stronger, compared to 2001. And it will continue to get 
stronger over the next decade unless we realize we are faced 
with a long-term, social transformation project. It is 
transforming Muslims into angry and fearful people who can then 
be easily controlled.
    So what should the U.S. do? Don't reduce Muslims to people 
whose main identity is their religious affiliation. They have 
hopes, frustrations, and aspirations, just like everyone else. 
Don't expect the silent majority to speak up until and unless 
they see a clear sign that the U.S. has decided to win, which 
means empowering the true democrats and ending existing unholy 
alliances.
    In choosing partners to engage, listen to what they say, 
and look at what they do when they are with their own people, 
not what they say to you in private meetings behind closed 
doors. Don't assume an individual group that sounds moderate, 
in fact is moderate.
    It is, therefore, critically important to shine a light on 
what is truly going on under the so-called Islamic regimes, so 
Muslims can see for themselves and no longer be manipulated 
into believing, for example, ``Life under a Shari'ah-based 
legal system will be much better than life under liberal 
democracy.''
    Most people believe it is possible to take only good 
aspects and leave bad aspects of Shari'ah. Maybe one day this 
will be possible, but today the implementers of Shari'ah do not 
allow such choices, because according to Islamic ideology, 
Shari'ah, Islamic law, regulates every aspect of an 
individual's life. And since it is considered to be God's law, 
no compromise is possible.
    You don't need to believe me, but please don't also believe 
men whose lives are not as affected as women. And please don't, 
also, believe women who have never lived under the Shari'ah 
system. Just ask women who have lived, and continue to live, 
under a Shari'ah system. Ask them if their lives have improved. 
Or, ask them if they want their daughters to live under this 
system.
    Unfortunately, media, especially those sources that cater 
to Muslim audiences, hardly ever show--things such images of 
Muslims killed--being killed by other Muslims, imams preaching 
hatred, mothers celebrating their son's suicide-bombing 
success, or teachers indoctrinating young brains with hatred 
toward Jews and Christians and anyone they consider to be ``the 
other.'' These are not seen or heard by the mainstream, the 
silent majority. They are kept ignorant and in denial. The only 
time they see heartbreaking images of women and children dying 
is when it is non-Muslims, especially Americans, killing them.
    Most people have no idea what is going on in places like 
Darfur or even in the middle of a European capital. Unless 
people have the information and can analyze it for themselves, 
they will never say, ``Enough,'' to the abuse of their state, 
or stop hating America.
    One of the most important areas the U.S. can help is by 
increasing funding and coverage of information sources like 
Voice of America, Radio Free Europe, Radio Liberty, and others. 
They can find other ways, maybe like the American centers, to 
enlighten people so that they can see and hear the truth for 
themselves.
    This is especially important when it comes to the most 
critical Muslim partners, women. Of all the various segments of 
the Muslim communities, women, I believe, have to be the 
primary focus of engagement in addition to the youth, of 
course. This is not just feminist jargon. Women are the focus 
of the Islamists, who have correctly identified them as the 
most important starting point. Women are the nucleus of the 
family and society. Mothers raise the next generation. A woman 
kept ignorant, illiterate, and living in fear can easily be 
controlled. If we neglect the women, we neglect the next 
generation. So, if the U.S. wants to see a different kind of 
social transformation, then women have to be at the center of 
all programs and not filed away under ``women's issues.''
    To start, there is absolutely no excuse or justification 
for beating or otherwise violating a woman. The offenders, 
whether they are husbands, fathers, brothers, or cousins, need 
to receive the appropriate punishment. At the same time, women 
need to know where and how to get help. And places such as 
shelters need to be available.
    In addition to the basic safety and security, women need to 
be empowered, and their imagination needs to be kept alive. And 
here, culture, arts, and literature are essential tools, and it 
is also why these are the first areas targeted by the 
Islamists. Anything that will keep the imagination alive so 
they can dream of a different life is banned by the Taliban and 
the like.
    It is also limited and controlled by secular authoritarian 
leaders. After all, the Islamists and the secular 
authoritarians are the two sides of the same coin. Both want to 
control the hearts and minds. Instead, we need to free minds 
and fill hearts with love. Only then will anti-Americanism 
subside.
    Like everyone else, Muslim women need to read, or be told, 
about uplifting and empowering stories from their own cultures. 
For example, the tale of Scheherazade, and her stories that 
span 1,001 nights, is one of the most beautiful ones. 
Unfortunately, it is still not available in most parts of the 
world where the Muslims live. It is often banned, while books 
that preach hatred are distributed freely.
    Scheherazade's tale has many different lessons for many of 
us. It is a story about a king who would marry and then kill 
his wife after their first night because he would fear they 
would betray him. Scheherazade, however, survived, thanks to 
her wit and imagination. She began telling a tale that 
continued 1,001 nights, and in this process, she gradually 
opened the king's heart and soul to love. In the end, he spared 
her. In many ways, she spared him, too, by awakening his 
humanity.
    This is the kind of story we need to be told--that mothers 
need to be telling their daughters. This is the kind of a story 
men need to hear as boys so they don't become hardened 
radicals. They don't need to fear women or keep them oppressed. 
If Scheherazade did not have the right tools to capture the 
king's imagination, she would have been killed like many others 
before her, and the king and the kingdom would have continued 
to suffer.
    By spreading stories like hers, we can help save other 
women and men, the rulers and the ruled, and ultimately 
ourselves.
    Thank you.
    [The prepared statement of Ms. Baran follows:]


                   Prepared Statement of Zeyno Baran

    Mr. Chairman, Ranking Member Lugar, Members of the Committee: Thank 
you very much for the opportunity to share with you my ideas about how 
to engage more effectively with the many and varied Muslim communities 
around the world. There are huge expectations that the Obama 
administration will undo some of the damage to the perception--and 
influence--of the United States within Muslim societies that has 
accrued during the past decade. I hope my brief presentation will 
contribute to this effort.
    I will begin by describing the biggest challenge facing the U.S. 
today: the problem of ``us'' and ``them.'' While it is clear to us, in 
Washington at least, that our foreign and security policies are not 
directed against Islam or any other religious community, it is not so 
readily understandable to many Muslims who see themselves as being part 
of ``them.'' In order to engage more effectively, our first step is to 
develop an accurate understanding of just who ``we'' and ``them'' are--
otherwise the U.S. may continue to alienate Muslims and strengthen the 
Islamists. I will then suggest some ``do's and don'ts'' that should 
guide U.S. policy going forward, before in closing emphasizing two 
priorities that the President and his administration should adopt: 
liberal democracy and the empowerment of women.
Engagement: With Whom and for What Purpose?
    I believe the biggest challenge in outreach programs has been the 
inability to identify what it is that America wants from Muslims; in 
other words, what is the purpose of engagement? Is it merely to stop 
terror attacks against Americans and allies? Is it to learn about a 
religion and its many cultural, political and historical aspects? Is it 
to genuinely try to improve the lives of Muslims, whether they live in 
Pakistan, Malaysia, Somalia or North America? I would argue that we 
will see an end to terror, radicalism and extremism when our intention 
becomes the empowerment of Muslims so they can achieve their full human 
potential. However, for a long time we have been trapped in a ``war on 
terror'' mindset, thereby neglecting the fact that terror is merely a 
tool used as part of a bigger strategy. This strategy encourages 
division, separating the ``West'' from ``the rest,'' so that those in 
the latter category will be left with no choice but to support Islamist 
political ideology. I have written extensively about the difference 
between Islam (the religion) and Islamism (the political ideology) and 
how we need to expose the extremists' cynical exploitation of the 
religion as a means of convincing the moderate majority of their fellow 
Muslims that the current conflict is religious in nature-and that the 
only solution is for Muslims to come together as part of a single 
nation (umma) following its own legal system (sharia) in pursuit of a 
new and anti-democratic world order.
    Why is Islamism a threat to democracy? Because according to its 
interpretations, sharia regulates every aspect of an individual's life; 
moreover, since it is considered to be God's law, no compromises are 
possible. The holistic nature of Islamist ideology makes it 
fundamentally incompatible with the self-criticism and exercise of free 
will necessary for human beings to form truly liberal and democratic 
societies.
    The Islamist movement is much stronger today than it was in 2001. 
And it will continue to get stronger over the next decade unless we 
realize we are faced with a long-term social transformation project 
designed to make Muslims angry and fearful people who can then be 
easily controlled.
    Despite our denials, this destructive ideology is increasingly 
taking hold in America as well. Consider Islamization like smoking: one 
cigarette may not cause that much harm, but continued smoking will do 
terrible damage to one's health. Some people die from it.
    Just recently we were shocked about a beheading of a woman by her 
husband who, reportedly, cited sharia as grounds for denying her a 
divorce. FBI Director Robert Mueller recently talked about the first 
known U.S. citizen to participate in a suicide bombing in Somalia; he 
said, ``The prospect of young men, indoctrinated and radicalized within 
their own communities and induced to travel to Somalia to take up 
arms--and to kill themselves and perhaps many others--is a perversion 
of the immigrant story,'' he said. ``For these parents to leave a war-
torn country only to find their children have been convinced to return 
to that way of life is heartbreaking.'' He is right.
A Different Transformation
    Death and destruction leads to further death and destruction; we 
need to rebuild--above all people's imagination, and thereby freeing 
their creative powers to live with joy and passion.
    So what should the U.S. do?
    Let's start with what not to do:


   Don't reduce Muslims to people whose main identity is their 
        religious affiliation; they have hopes, frustrations, 
        aspirations just like anyone else.

   Don't expect the silent majority to speak up until and unless they 
        see a clear sign that the U.S. has decided to win, which means 
        empowering the true democrats and ending existing unholy 
        alliances.

   In choosing partners to engage, listen to what they say and look at 
        what do when they are with their own people, not what they say 
        to you in private meetings, behind closed doors.

   Don't assume an individual or group that sounds moderate in fact is 
        moderate.

   Don't look for ``spokesmen'' or ``representatives'' for Muslims as 
        the solution. Most of these people just speak for themselves or 
        their organizations. Moreover, Islam teaches Muslims that we 
        are our own masters; we submit only to God, and no religious 
        authority on earth can control our hearts and minds--unless we 
        let them.


    It is therefore critically important to shine a light on what is 
truly going on under the so-called Islamic regimes--so Muslims can see 
for themselves that life under a sharia-based legal system is not, in 
fact, better than under liberal democracy. When asked why they want 
sharia, most people explain that they want an end to crime and 
corruption and want to live with safety, security and dignity; most 
believe it is possible to take only ``good aspects'' of sharia, and 
leave out ``bad aspects.'' Maybe one day this will be possible, but 
today, the implementers of sharia do not allow such choices. Because, 
as I mentioned earlier, since it is considered to be God's law, no 
compromises are possible.
    You don't need to believe me, but please also don't believe the men 
whose lives are not as affected as women, and please don't also believe 
the women who have never lived under the sharia system. Just ask the 
women who have lived or still do live under a sharia system--ask them 
if their lives have improved. And ask them if they want their daughters 
to live under this system as well.
    Unfortunately, media, especially those sources that cater to Muslim 
audiences, hardly ever show things such as images of Muslims being 
killed by other Muslims, imams preaching hatred or mothers celebrating 
their son's suicide bombing success, or teachers indoctrinating young 
brains with hatred towards the Jews and Christians and anyone they 
consider ``the other.'' These are not seen or heard by the members of 
the silent majority, which is kept ignorant and in denial--the only 
time they see heartbreaking images of women and children dying is when 
it is non-Muslims, especially Americans, killing them. Most people have 
no idea what is going on in places like Darfur or even in the middle of 
a European capital. Unless people have the information and analyze it 
for themselves, they will never say ``enough'' to the abuse of their 
faith-or stop hating America.
    For this purpose providing alternative media sources is critically 
important. The U.S. can best help by increasing funding and coverage of 
both the Voice of America as well as Radio Free Europe/Radio Liberty, 
and find other ways to help enlighten people so they can see and hear 
the truth for themselves.
    In this context, I believe there are two fundamental priorities the 
Obama administration ought to adopt, if this time things are to be 
different: a commitment to liberal democracy and to the empowerment of 
women.

Commitment to Liberal Democracy
    Throughout the world, liberal democracy is once again being 
challenged both as a political system and, more fundamentally, as an 
ideology and as a set of beliefs. Whether we like it or not, we are 
engaged in an ideological struggle--and the U.S. is losing ground. 
Further spread of Islamism will leave America isolated and powerless to 
achieve its goals in security and foreign policy.
    Faced with authoritarian threats in both religious and secular 
forms, the U.S. should not be questioning whether to promote democracy; 
but should be deciding how. A democracy promotion effort needs to be 
not piecemeal, but comprehensive; a holistic challenge requires a 
holistic response. The whole concept needs to be redesigned with an eye 
towards constructing a longer-term timeframe that lasts beyond any one 
presidential administration. If not, the U.S. and its allies will 
continue to grow weaker as its opponents strengthen.
    In general, the U.S. looks for short-term successes when instead a 
generational commitment is needed--as the Bush administration 
originally stated. But again, the U.S. had to demonstrate success 
quickly, and thus went for the ``low-hanging fruit''--at points even 
sounding as doctrinaire about democracy promotion as those who oppose 
democracy. Now, as a result, we are back at the same point in the 
cycle--if not lower.
    Despite over 60 years of on-again, off-again efforts at democracy 
promotion in the Middle East and places like Afghanistan and Pakistan, 
the binary model that forces a choice between autocrats in power and 
populist extremists out of power has never really disappeared. It is a 
mystery to me why the U.S. does not remain true to its own values and 
support the third option--the liberal democrats. Yes, liberal democrats 
in most parts of the so-called Muslim world are but a small minority 
today--but they will never grow in support unless backed by the U.S.; 
the other two sides already get all the financial and organizational 
help they could want.
    The prevailing view--that Islamists should be co-opted into 
existing political systems--simply will not work. Often, Islamists are 
willing to make superficial concessions while continuing to hold an 
uncompromising worldview. The U.S. simply does not understand Islamism, 
even though it has been an active and increasingly powerful counter-
ideology over at least three decades. Islamism is not compatible with 
democracy; Muslims can be democrats. There is a huge difference.
    The academics, analysts and policy makers who argue that a movement 
like the Muslim Brotherhood today is ``moderate'' seem to disregard its 
ideology, history, and long-term strategy. They even seem to disregard 
the Brotherhood's own statements. It is true that most affiliates of 
this movement do not directly call for terrorist acts, are open to 
dialogue with the West, and participate in democratic elections. Yet 
this is not sufficient for them to qualify as ``moderate,'' especially 
when their ideology is so extreme. Turning a blind eye to ideological 
extremism--even if done for the sake of combating violent extremism and 
terrorism--is a direct threat to the democratic order.
    Unfortunately, since 9/11, the U.S. has alienated many of its 
allies and strengthened enemies in the Muslim world. This is one of the 
reasons why the U.S. lost the support of the secular movement within 
Turkey, which is traditionally the domestic constituency most closely 
allied to the West. Turkey is the only NATO member with a majority 
Muslim population. Today, a large majority of Turks have negative views 
of the U.S., and these include people who are American educated. Why is 
that? Because they (correctly) perceive U.S. policy as promoting a 
``moderate Islamist'' government in their country--one that can serve 
as a model for the Muslim world. Yet even the current political 
leadership coming from an Islamist past opposes to be called ``moderate 
Islamist'' and instead prefers ``Muslim democrat'' as a description.
    Turkey is truly unique for a country with nearly all Muslim 
citizens; the U.S. needs to first understand what makes it unique 
before trying to change it so it fits a particular democratization 
theory. The end of the caliphate and the Islamic sharia legal system 
were revolutionary moves. Most Muslim countries still have sharia law 
enshrined in their constitutions, something which has impeded their 
democratic evolution. For its part, Turkey has evolved as a democratic 
country because it was founded as a secular republic. It is in this 
context the country has served as a beacon of hope for liberal 
democrats across the Muslim world.

Going Forward
    It is critically important to recognize that since 9/11, anti-
American movements, groups and leaders (from Russia to Venezuela) have 
come closer together in a shared hostility to the Western liberal 
system. The worldwide U.S. commitment to, and promotion of, liberal 
democracy must therefore not be tacked on as an afterthought, but must 
be at the core of the U.S. foreign and national security strategy. This 
means returning to the fundamentals of what America is about: defending 
and guaranteeing freedom and dignity.
    Yet, it is important to keep in mind that anti-American groups will 
continue to try to take advantage of open societies. Some intentionally 
provoke incidents intended to promote an ``us versus them'' mentality. 
They also feed conspiracy theories. The Islamist narrative is about 
victimization and humiliation; it is part of a deadly mixture of the 
feeling of political and economic inferiority with moral and ethical 
superiority.
    I believe having President Obama in office will grant the U.S. only 
short-term relief; Islamists are working on new narratives and 
searching for new grievances, since their need to undermine the U.S. 
and its democratic vision is so incredibly strong. Hopefully, the Obama 
administration will not be so eager to reverse the unpopularity of the 
Bush years that it will limit the emphasis on democracy that is so 
essential for advancing American interests.
    America needs to be true to its values and principles. The U.S. 
should not be promoting ``moderate Islam,'' but liberal democracy. 
There is no Arab or Muslim exceptionalism; leaders make these arguments 
in order to retain their hold on power over their people. Even though 
people in different parts of the world may use different terms, the 
yearning for what we call freedom and liberal democracy is indeed 
universal.
    There are no easy solutions, but if the U.S. does not show 
leadership, no one else will. We need to be patient and focus on 
institution-building to enable democratic cultures to take hold. Each 
country has its own path that is based on its own history, culture and 
traditions, and it takes time; there simply is no shortcut. The U.S. 
seems to have a lot of patience with the ``democratization'' process in 
Saudi Arabia--so why is there a different approach to Egypt?
    We need to make a long-term commitment and not look for short-term 
successes that jeopardize longer-term gains. It should be clear by now 
that democracy is not merely about the electoral process. Holding 
elections, however free and fair in a technical sense, without first 
undertaking the difficult process of building institutions will get us 
only one thing: Hamas. Simply put, hungry, fearful, and uneducated 
people cannot be democrats. They need to be safe from being killed 
purely because they are from the wrong ethnic, religious or sectarian 
background. People also need to be educated--illiteracy is a problem in 
itself, but what is taught is as important. If all they are taught is 
how to memorize the Koran or why to hate the West, how can they 
transcend this teaching? And without building critical-thinking skills 
as well as teaching civics and democratic values, we will continue to 
see highly intelligent Western-educated doctors and engineers 
committing suicide attacks. People also need to be able to feed and 
clothe their families; but material successes are not enough to imbue 
one with a love for the liberal democratic system that makes them 
possible.
    Clearly, the U.S. cannot do this cheaply--especially given how much 
everyone else is spending on anti-democratic agendas. In many of these 
programs, there can be partnerships with the Europeans and others who 
are similarly committed to democratic development. Moreover, compared 
to how much U.S. is spending on wars and military budget, the amount 
will be minimal with huge returns. And, with the economic crisis 
hitting parts of the world that are so critical, such as Pakistan, 
there is even greater need for the U.S. to allocate larger sums of 
money for education and institution building by supporting 
organizations that would eventually lead to democratic civil society-
particularly secular organizations (press, judiciary, women's 
organizations, small and medium business associations, etc).
    In many parts of the world, following the shock of globalization 
and the resulting questioning of identities, countries are 
reconstructing their own national identities. The U.S. has to be 
influencing this process so destructive ideas do not take root.

Empowerment of Women
    This is especially important when it comes to the most critical 
Muslim partners, the women. It is also why of all the various segments 
of Muslim communities, women have to be the primary focus of 
engagement. This is not just feminist theory; women are already the 
focus of Islamists who have correctly identified them as their most 
important starting point of their social engineering project: Women are 
the nucleus of family and society; mothers raise the next generation--a 
woman kept ignorant and living in fear can easily be controlled. If we 
neglect the women, we neglect the next generation. So if the U.S. wants 
to see a different kind of social transformation, then women have to be 
at the center of all programs and not filed away under ``women's 
issues.''
    To start with, there is no excuse or justification for beating or 
otherwise violating a woman--and when it happens, the appropriate 
punishment must follow. At the same time, women need to be given help; 
and the existence of places that help them, including shelters, needs 
to be widely publicized. Rape needs to be punished severely since it is 
a form of murder--one which kills the spirit--and which is used 
systematically as a weapon of war against civilian populations.
    In addition to the basic safety and security, women need to be 
empowered to know their own value while being provided with the tools 
to defend and protect themselves. Most importantly, their imagination 
needs to be kept alive, and here culture, arts, and literature are 
essential tools--and that is also why these are the first areas 
targeted by the Islamists. Anything that will keep the imagination 
alive so they can dream of a different life is banned by the Taliban 
and the like.
    It is also often limited and controlled by the secular 
authoritarian leaders--after all, the Islamists and the secular 
authoritarians are the two sides of the same coin: both want to control 
the hearts and minds. We need to free the minds and fill the hearts 
with love, not hatred; only then will the anti-Americanism subside.
    Like everyone else, Muslim women need to read or be told about 
uplifting and truly empowering stories--from their own cultures. I mean 
truly empowering because I have in mind the story of an Iraqi woman who 
was part of a plot in which young women were raped and then sent to her 
for matronly advice, only to be told that becoming suicide bombers was 
their only escape from the shame and to reclaim their honor. This shows 
how far the destructive powers will go. Instead, we need role models 
like Scheherazade, and learn from her stories that span a thousand and 
one nights. Her tale is one of the most beautiful ones with many 
different lessons for many of us--yet is unavailable in most parts of 
the world where Muslims live; it is often banned, when books that 
preach hatred are distributed freely. It is a story about a king who 
would marry and then kill his wives after their first night because he 
would fear they would betray him. Scheherazade, however, survived 
thanks to her wit and imagination: she began telling a tale that 
continued for 1001 nights, and in this process she gradually opened the 
king's heart and soul tolove--in the end he spared her. In many ways 
she spared him too by awakening humanity that allowed him to love 
again.
    This is the kind of story we need be told by mothers to their 
daughters. This is the kind of story men need to hear as boys so they 
do not become hardened radicals. They need not fear women or keep them 
oppressed and ignorant: if Scheherazade did not have the right tools to 
capture his imagination, she would have been killed like many others 
before her, and the king and the kingdom would have continued to 
suffer. She saved them all; by spreading stories like hers, we can help 
save other women and men, the rulers and the rules, and ultimately 
ourselves.


    The Chairman [presiding]. Zeyno, thank you. Very important 
testimony.
    I apologize, Eboo, for missing your opening comments, but I 
have your submitted statement here. And I apologize, to all of 
you, that this has been a little bit disjointed. I hate that, 
and this--the schedule seemed to be getting jammed.
    Regrettably, also, the White House has asked me to come 
down, now, in about 15 minutes, for a meeting on the 
President's announcements on Iraq tomorrow. So I'm going to 
have to leave here momentarily. But, as I said, this is a 
beginning and not an ending. And what I think I may do is, 
really, perhaps even set up a roundtable, maybe, the next time 
we do this, and invite some of you back to be part of that, so 
we can have a little more give-and-take and back-and-forth on 
some of this, which I think would be helpful.
    As I listened to your testimony, Zeyno, and I listened to 
yours, Dalia, it strikes me that there is actually a little bit 
of a contradiction in what you're saying to what the first 
panel said, in the sense that, while--and even in some of my 
comments, because when I draw this line of what is the real 
teaching of the Quran, or the real teaching of Islam, you're 
obviously painting a picture of how that's being abused. But, 
we are obviously not the right people, for all the obvious 
reasons, to point that out to anybody.
    So, when the question was asked earlier by Senator Wicker 
about sort of a reformation, or whatever you want to call it--
and it's obviously inappropriate for us to call for it--the 
question looms large, Who will stand up? Who will define the 
realities, here?
    I mean, when you have people who clearly are told, ``If you 
wrap a bunch of plastic, you know, satchels around you, and you 
walk into a nightclub and blow yourself up, you're going to go 
to paradise, and there are 72 virgins waiting there, and you're 
going to have breakfast with the prophet,'' and so forth, what 
do you do? Who does what?
    Ms. Mogahed. If I may, Mr. Chairman, I think you are asking 
a very important question. What I would like to propose, 
though, is that this radical ideology is a byproduct of a 
deeper issue, which is a radical political ideology. And that's 
where we can have a much greater effect. So----
    The Chairman. So who's the ``we''?
    Ms. Mogahed. The United States of America. The religious 
extremism is really just a veneer around a very deep political 
extremism, political ideology around widely held grievances. 
And so, what people are hearing is that--the terrorists are 
telling them, ``We can solve your problems if you will use 
violence. Violence is the way to solve your problems.'' And 
they are using religious terminology to give that approach----
    The Chairman. I understand that. We all understand that.
    Ms. Mogahed. I understand, but let me explain--the second 
piece is that if we can deal with the grievances, then--and 
show people that you can change things through peaceful means, 
the religious extremism will no longer appeal to people. I--the 
appeal of the religious extremism is a byproduct of----
    The Chairman. Of the failure of governance, to some degree.
    Ms. Mogahed. Absolutely.
    The Chairman. But, isn't that also a failure of 
opportunity, to some degree? I mean, there are countries--I'm 
not going to go through them all here now--where there are some 
very unwritten--and I will use the term ``unholy alliances''--
between the existing regime and an extreme practice of 
religion. And one sort of says, ``Well, we'll leave you here to 
rule, but we're going to be--rule the minds and the hearts and 
souls.'' And so, whether it's Wahhibism or some other extreme, 
a lot of money is being invested in that----
    Ms. Mogahed. Right.
    The Chairman [continuing]. Today in the world. And so, who 
and how--I mean, it--will stand up to say, ``This is, in fact, 
a distortion. This is a hijacking of the legitimacy?'' Because 
countless numbers of Muslims have come to me and said, 
``Senator, you should know, killing innocent people is outlawed 
in the Quran.''
    Ms. Mogahed. Right.
    The Chairman. And any--you can go run down the list of 
things that are outlawed. And, in fact, then, on the positive 
side--there isn't any religion that doesn't live by the Golden 
Rule, supposedly; and yet, obviously these folks aren't.
    But, you know, what we're searching for is the most 
effective mechanism--I mean, there are long-term ones; we can 
certainly keep reaching out and keep talking. But, if these 
governments are going to ignore some of the fundamental 
complaints of their own citizens, and some of the fundamental 
empowerment of their own citizens, it's going to be hard, it 
seems to me, for us to break through that.
    Ms. Mogahed. If I may, I----
    The Chairman. OK, both of you respond.
    Ms. Mogahed. I will say, very quickly, our data shows that 
what drives public sympathy for terrorism is not religious 
fervor, and it's not even religious extremism. It is political 
views. The people who sympathize with terrorism look different 
than the mainstream, in their perception of politics, not in 
their perception of religion.
    And so, to get at that sympathy for terrorism, it's not by 
reforming Islam, it's by offering people a different way to 
make change than the violence that the extremists say is the 
only way.
    The Chairman. Zeyno.
    Ms. Baran. Well, I would say the problem we have is that 
Wahhibism has ``reformed'' Islam and it has not reformed it in 
a positive way. Rather, it has actually silenced pluralistic 
voices within Islam.
    We can't say there is a single Christian voice. There are 
many, many different Christian voices. Through, unfortunately, 
very bloody periods, different groups were established, and now 
we now who are the radicals and who are the not-radical voices.
    Unfortunately, in Islam, after decades and decades of 
billions of dollars spent, Wahhabism has made serious inroads, 
and is now clouding over all other interpretations, all other 
understandings.
    There are thousands of Muslims who disagree with that. But, 
usually they are silent. They don't have money, they don't have 
resources, and they don't have safety. Often, anybody who 
disagrees with certain views is silenced or even killed. So, it 
becomes a very dangerous enterprise. And I think, if anything, 
the U.S. can at least support those people.
    You're right, the U.S. does not have legitimacy to speak 
about the Quran or the different understandings of Islam. There 
is not a single correct interpretation. But, there are people 
who are trying to bring out the different understandings and 
the plurality of Islam.
    Now, on the grievance issue--I've studied Islamist groups 
working all over the place, including in America. The grievance 
will never end, because the ideology is based on sometimes 
provoking confrontation and in other times overemphasizing the 
grievances. We all have problems in our lives. The question is, 
how do we deal with it? And if you are told that, ``The answer 
to your problems is to change the world order so that we all 
will live under an Islamic caliphate, and then everything will 
be great, and there will be justice and peace'' the sense of 
being a victim will never come to an end. So we need to do 
both, making sure that ideology is no longer taking hold, 
especially among youth, and also while addressing some of the 
legitimate grievances, that there's always something to be 
upset about.
    The Chairman. Well, let me leave Senator Kaufman in charge, 
here, and I thank you very much. I promise you, we will get 
back and set this up in a structure where we continue this 
discussion with other experts. And I promise you, it will be 
interesting.
    Thank you very, very much.
    Senator Kaufman [presiding]. Thank you.
    Mr. Patel talked a lot about youth, and I think that anyone 
who looks at the demographics of many of the--especially in the 
Middle East, the demographics are overwhelmingly--it's youth-
based culture.
    Can the three of you kind of give me some practical 
suggestions on how we should engage the youth in the Islam 
world? I know you can----
    Mr. Patel. So, Mr. Chair, let me begin with some of those, 
and then turn it over to my esteemed colleagues here.
    Let me first, though, address some of the lingering 
dimensions of the past question. And let me begin by asking a 
question, which is, What is going to lead, tomorrow, in the 
Arab press, about the conversations about Islam on Capitol 
Hill? Is it going to be this hearing, or is it going to be the 
fact that an unbelievably offensive film was shown in a--
amongst the most ornate rooms of Capitol Hill?
    Senator Kaufman. Mr. Patel----
    Mr. Patel. Yes.
    Senator Kaufman. Let me just cut--that's true about 
everything. That--I mean that's not--don't take this as 
personal, but every day the media is led by the outrageous, the 
scandal, the--where there's division, where there's arguments--
on Capitol Hill, the unusual is always driving out the kind of 
normal dialog. So, this is not special to just this question.
    Mr. Patel. While I--I think I agree with that. I think that 
part of what is happening is a mirror reflection of itself, 
which is to say, we, here, are asking the question about, Where 
are the peaceful voices in the Muslim world? My sense is, the 
vast majority of the peaceful world are speaking and singing in 
peaceful voices. What they hear of--what we see of them are 
only the most violent voices. What they see of us are our 
version of violent voices.
    Senator Kaufman. Absolutely.
    Mr. Patel. The Chinese philosopher Sun Tzu once said--if we 
do not--if you do not understand yourself, and you do not 
understand the enemy, you will lose every battle.
    My big fear is that we are getting the ``us'' and the 
``them'' wrong. And instead of focusing, as Dalia said, on bin 
Ladenism, and seeking to destroy that and uplift the rest of 
humanity, there are too many people sending messages about the 
``them'' being 1.3 billion people. How we get clarity around 
that, get our own--communicate our own values, our own sense of 
``us'' as including Muslims and Christians, seculars and 
Buddhists, Arabs and Americans, and a sense of ``them'' which 
is about groups of people, of whatever religion, who want to 
dominate others.
    My favorite line on this is simple. The terrorists of all 
traditions belong to one tradition, the tradition of terrorism. 
How we communicate that, I think, is going to be the difference 
between conflict and peace in the 21st century.
    Senator Kaufman. But----
    Mr. Patel. How we communicate that to young people is going 
to be especially important.
    Senator Kaufman. But, could I just say that the--you know, 
this is always a problem, and we're going to have to do it in a 
world where we have a free press. I mean, I think--Ms. Baran 
was talking about Voice of America and Radio Free Europe, Radio 
Liberty, al Hura television, Sawa--all these people have--I 
mean, the basic message there is freedom of the press and free 
exchange of ideas. So, whatever we do, we have to do it with 
the understanding that there is going to be people saying all 
kinds of crazy things about--you know, about us and about 
people that encourage a free press.
    So, the real question here is, realizing that that's the 
start--and it's compounded by the fact that many of the 
countries that we're broadcasting into does not have a free 
press. As you said--I think it was Ms. Baran--talked about al 
Jazeera showing just one side of the story, showing just the 
fact that it does not show Muslims killing Muslims, does not 
show many of the things that are going on. So, it makes it even 
more complicated.
    So, that's just a reality. As long as we're pushing--as 
long as we're saying we should have a free press, as long as 
we're calling for the free exchange of ideas, which I think is 
one of the basic beliefs that we have, as a way to deal with 
this--it has the unintended, kind of, ugly side effect of 
allowing people, that have rather radical ideas in our society, 
to get a platform for doing it. But, taking that into account, 
as a given--unless you don't agree that's the given--kind of, 
what do we do in order to engage with the youth, understanding 
that reality?
    Mr. Patel. I think that that is a given. I think that there 
is an additional given. I'll close with this comment, which is 
that how we frame the question matters a great deal. There is 
no good answer to the question, ``When did you stop kicking 
your dog?''
    Senator Kaufman. Absolutely.
    Mr. Patel. And there is no good answer to the question, 
``Why are you people so violent?'' As Dalia suggested in her 
testimony, when we approach 1.3 billion people as suspect and 
not allies, when we--when we say, ``Where are your peaceful 
voices?'' when, in fact, the truth is, the United States has 
the most prominent and important scholars of Islam in all of 
the Western world, scholars who are deeply regarded, even in 
the great learned cities of the Muslim world, and we don't know 
them, we don't know their names in a common way, the way we 
know, for example, Christian names, we reveal our ignorance in 
a way that makes a fifth of humanity feel like suspects.
    Senator Kaufman. I agree.
    Mr. Patel. I think the fact that the majority of that fifth 
of humanity are young people, and we are nurturing this 
poisoned relationship--in part, by the framing of the 
question--instead of saying, ``What can we--Who are you, how do 
we relate to each other, and what can we do together?'' we are 
saying, ``Why are you people a problem?'' That is going to lead 
us downhill in this century.
    Senator Kaufman. Good.
    Ms. Baran.
    Ms. Baran. Well, I will say, on this issue, since this 
film-showing has been raised, this actually goes to some of the 
basic lack of understanding of--I agree, of the--sort of, the 
``us'' and ``them,'' but also, in general, what America is 
about.
    In America, there are all kinds of opinions that we hear, 
we may detest them but we learn how to deal with it. If we 
don't agree with a particular opinion, we try to get together, 
and then we try to explain to others why that opinion may be 
hurtful, why it may do damage, but we don't try to silence it. 
Because when we silence, then we are no different than some of 
the oppressive regimes of the Middle East.
    Now, as a Muslim, I, of course, disagree with Geert 
Wilders' understanding of what Quran is. But, I would like to 
be discussing with him, in the way that we talk about engaging 
with Muslims. Muslims need to also engage with voices that say, 
``Well, here is some of your leadership saying these things. Do 
you agree or do you not agree?'' And by just saying that, 
``These things are horrible views,'' it seems almost that we 
are in denial that, in the leadership positions, people are 
actually doing very damaging things, in terms of poisoning 
minds of people. And the difficulty, though, is, when there is 
not a culture and practice of challenging or free thinking or 
free press, then people assume these are intentional, these are 
intended to hurt Muslims, these sort of acts are intended by 
the U.S. Congress, for example, to insult Islam. I think there 
is a lot of engagement that is needed on that level to explain 
why some event like this might take place. We may not agree 
with it, but we might be able to explain it.
    And another thing is that education, then, becomes even 
more important, because people need to be able to understand 
for themselves, when certain things happen, that it's not the 
U.S. Government, or it's not Christians, that it's individual 
people. And then, we also need to learn how to deal with it. 
When he says, ``Islam is a violent religion,'' if our response 
is having violent demonstrations, then we only make his case.
    Senator Kaufman. Great.
    Ms. Mogahed.
    Ms. Mogahed. Thank you, Mr. Chairman.
    My biggest recommendation to engage youth is allowing job 
creation. The largest unemployment rate among youth in the 
world is in the Middle East. It's higher than 25 percent. In 
the Palestinian territories, it's 50 percent. The biggest issue 
on the minds of young people in the Middle East, and in the 
greater Muslim world, where there is a youth bulge, is 
employment and job opportunities. And so, anything we can do to 
stimulate economic growth to create jobs is the most--is going 
to be the most important and most valuable thing that we can do 
to engage young people in this part of the world.
    Senator Kaufman. Great.
    Listen, I want to thank you for being here. And I'm really, 
really pleased the chairman says we're going to continue this, 
because obviously we could go on for another 2 or 3 hours, and 
not even begin to touch the surface. But, I think it's really 
been an education.
    And I think that, you know, to answer your question about 
the message we send, the fact that we're having this hearing 
today, I think, sends a message. The fact that there's two 
things going on in the Capitol at the same time, why, it just 
sends a message on what we're all about.
    I think that one of my main concerns--I'm kind of 
prejudiced, because I was on the Broadcasting Board of 
Governors--but, I think broadcasting not just to the Muslim 
world, but the entire world, so that people can better 
understand what our system is, and see firsthand what our 
system is, and understand what a free press is, and what the 
examples of free press, is one of the big things we can do in 
order to fix the problems.
    I also think the economic issue is probably, you know, the 
single most important thing to youth. But, I think, looking at 
the survey data--and you know better than I do--a lot of the 
youth in the Muslim world are very taken with American culture. 
I'm not talking about the ``bad'' part of our American 
culture--``bad,'' in quotes--but the ``good'' part of American 
culture. So, I think, in many countries, as I see, you know, 
the extent that our culture is out front is a good thing to 
kind of help people at least begin to engage.
    And again--and finally, I think you were all right, in 
terms of, clearly, some of the grievances. Part of this is 
about grievances, and how we deal with grievances, the--what 
our policies are and the rest of it.
    So, I thank you all for coming here. It's been a great 
hearing, and I'm looking forward to the next one already.
    So, the committee's adjourned.


    [Whereupon, at 5:05 p.m., the hearing was adjourned.]


              Additional Material Submitted for the Record


           Statement for the Record Submitted by Congressman 
           Keith Ellison, U.S. Representative From Minnesota

    Let me start by thanking Chairman John Kerry and ranking member 
Richard Lugar for holding this important hearing today. I would also 
like to thank the distinguished members of the panels for their 
participation and for their important work on this issue.
    This hearing is a commendable effort toward repairing and fostering 
better relations between the United States and the Muslim world. The 
timing of this hearing could not have been better. President Obama's 
commitment to initiate a new partnership based on mutual respect and 
mutual interest is a groundbreaking olive branch to the 1.5 billion 
Muslims in the world. Similarly, the President's recent appointment of 
Senator George Mitchell as Special Envoy to the Middle East is 
indicative of the vital re-engagement of the United States in the 
region's peace negotiations.
    Let me also express my appreciation to you, Senator Kerry, for 
traveling to Gaza last week to see first-hand the situation on the 
ground. As the Chairman knows, I also made the trip to Israel and Gaza 
together with Congressman Brian Baird of Washington State, coinciding 
with Chairman Kerry's visit to the area.
    Since coming to Congress, I have had the opportunity to visit 
several countries throughout the Muslim world. I have found a 
consistent interest for more dialogue and better relationships with the 
U.S. among Muslim leaders. These leaders hope for the U.S. to have a 
better understanding of the Muslim world, and they wish to move beyond 
the negative characterizations that have colored our relationships in 
the years following 9/11.
    In my view, there exists a delicate, yet robust interconnection 
between the United States and the Muslim world that provides both 
challenges and opportunities. Muslim countries share a religious faith, 
but they are also distinct countries with diverse cultures, traditions, 
and ideologies. They should not be viewed monolithic or homogeneous.
    The national security and economic interests of the U.S. are better 
served if we preserve and build our relationships with the leaders and 
people of the Muslim world. In fact, the U.S. has had, and consistently 
maintains, several important allies among Muslim countries. To cite one 
example, Morocco, a Muslim country, was the first country to publicly 
recognize the Unites States in 1777, and remains our oldest and closest 
ally in North Africa.
    The American Muslim community also reflects the diversity of the 
larger Muslim world. American Muslims live in every state and community 
in America. They are proud and patriotic Americans, yet they maintain 
ties with their extended families in their countries of origin. We can 
develop better relationships with the Muslim world through increased 
dialogue with American Muslim leaders and organizations.
    There is a need, however, to broaden the scope of our engagement 
beyond counter-terrorism and security. We must take a more 
comprehensive view of other areas of mutual benefit such as economic 
development, trade, cultural understanding, and educational exchange.
    Our national security interests will be best advanced by 
initiatives being undertaken by President Obama, including outreach to 
the Muslim world, a responsible ending to the war in Iraq, the closing 
of Guantanamo Bay, and renewed leadership in the Israel-Palestine 
conflict.
    This hearing represents a significant step toward increased 
dialogue on these critical issues. Most importantly, we need to send a 
clear message that we are determined to interact in peace with the 
Muslim world based on respect and understanding. I believe that, with 
this paradigm shift in our thinking, we will meet with greater success 
in our relationships with the Muslim world, including a more profound 
security for America and the world.


</pre></body></html>
